<html>
<title> - STATE FOREST MANAGEMENT: A MODEL FOR PROMOTING HEALTHY FORESTS, RURAL SCHOOLS AND JOBS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
            STATE FOREST MANAGEMENT: A MODEL FOR PROMOTING 
            HEALTHY FORESTS, RURAL SCHOOLS AND JOBS

=======================================================================



                           OVERSIGHT HEARING

                               before the

                      SUBCOMMITTEE ON PUBLIC LANDS

                      AND ENVIRONMENTAL REGULATION

                                 of the

                     COMMITTEE ON NATURAL RESOURCES

                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       Tuesday, February 26, 2013

                               __________

                            Serial No. 113-2

                               __________

       Printed for the use of the Committee on Natural Resources



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov





                  U.S. GOVERNMENT PRINTING OFFICE
79-812                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman

            EDWARD J. MARKEY, MA, Ranking Democratic Member

Don Young, AK                        Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F. H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Tom McClintock, CA                   Jim Costa, CA
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Cynthia M. Lummis, WY                    CNMI
Dan Benishek, MI                     Niki Tsongas, MA
Jeff Duncan, SC                      Pedro R. Pierluisi, PR
Scott R. Tipton, CO                  Colleen W. Hanabusa, HI
Paul A. Gosar, AZ                    Tony Cardenas, CA
Raul R. Labrador, ID                 Steven A. Horsford, NV
Steve Southerland, II, FL            Jared Huffman, CA
Bill Flores, TX                      Raul Ruiz, CA
Jon Runyan, NJ                       Carol Shea-Porter, NH
Mark E. Amodei, NV                   Alan S. Lowenthal, CA
Markwayne Mullin, OK                 Joe Garcia, FL
Chris Stewart, UT                    Matt Cartwright, PA
Steve Daines, MT
Kevin Cramer, ND
Doug LaMalfa, CA
Vacancy

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
               Jeffrey Duncan, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

       SUBCOMMITTEE ON PUBLIC LANDS AND ENVIRONMENTAL REGULATION

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Peter DeFazio, OR
Louie Gohmert, TX                    Niki Tsongas, MA
Doug Lamborn, CO                     Rush Holt, NJ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Cynthia M. Lummis, WY                    CNMI
Scott R. Tipton, CO                  Pedro R. Pierluisi, PR
Raul R. Labrador, ID                 Colleen W. Hanabusa, HI
Mark E. Amodei, NV                   Steven A. Horsford, NV
Chris Stewart, UT                    Carol Shea-Porter, NH
Steve Daines, MT                     Joe Garcia, FL
Kevin Cramer, ND                     Matt Cartwright, PA
Doug LaMalfa, CA                     Edward J. Markey, MA, ex officio
Doc Hastings, WA, ex officio

                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, February 26, 2013.......................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     1
        Prepared statement of....................................     3
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     3
        Prepared statement of....................................     5
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     5

Statement of Witnesses:
    Grose, Hon. F. Lee, Commissioner, Lewis County, Washington...    17
        Prepared statement of....................................    18
    Jensen, Matthew, American Loggers Council....................    20
        Prepared statement of....................................    22
    Otter, Hon. C.L. ``Butch'', Governor, State of Idaho.........     9
        Prepared statement of....................................    11
    Whitman, Hon. Silas, Chairman, Nez Perce Tribe Executive 
      Committee..................................................    13
        Prepared statement of....................................    15

Additional materials supplied:
    Rigdon, Philip, President, Intertribal Timber Council, 
      Statement submitted for the record.........................    49
                                     



 OVERSIGHT HEARING ON ``STATE FOREST MANAGEMENT: A MODEL FOR PROMOTING 
               HEALTHY FORESTS, RURAL SCHOOLS AND JOBS.''

                              ----------                              


                       Tuesday, February 26, 2013

                     U.S. House of Representatives

        Subcommittee on Public Lands and Environmental Regulation

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:07 a.m., in 
Room 1324, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Bishop, Gohmert, Lummis, Tipton, 
Labrador, Amodei, Stewart, Daines, LaMalfa, Hastings, Herrera 
Beutler, Southerland, Grijalva, DeFazio, Holt, Horsford, and 
Garcia.
    Mr. Bishop. All right, we will come to order, if possible. 
We note the presence of a quorum. In fact, more of a quorum 
than we usually have, so I appreciate that.
    The Subcommittee on Public Lands and Environmental 
Regulation is meeting today to hear testimony on State forest 
lands and the lessons they can provide for management of our 
Federal forest system. So, under the Committee Rules, the 
opening statements are limited to the Chairman, Ranking Member 
of the Subcommittee, and the Chairman of the full Committee, so 
we can hear from our witnesses more quickly. I would ask 
unanimous consent to include any Member's opening statement in 
the record if it is submitted to the Clerk by close of business 
today.
    [No response.]
    Mr. Bishop. Hearing no objections, we won that one.
    I also ask unanimous consent that members of the full 
Committee that are not on the Subcommittee be allowed to sit on 
the dais, and any Member who is here be allowed to participate 
on the dais with us. Without any objection?
    [No response.]
    Mr. Bishop. Good.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. Today this Subcommittee is hearing testimony on 
non-Federal forest management and what the Federal Government 
can learn to better promote healthy forests and rural 
communities and jobs.
    So the last few decades we have seen our National Forest 
System fall into complete neglect. What was once a valuable 
asset has deteriorated into a growing liability. So I believe 
our national forests and public lands are long overdue for a 
paradigm shift. It is time for the Federal Government to cease 
being the absentee landlord over 600 million acres of this 
country that it controls, and start leveraging those lands in a 
way that benefits rather than burdens the taxpayers and the 
communities who are forced to play host to the Federal estate.
    This is the first of several hearings we intend to hold on 
this issue of shifting this paradigm. With respect to better 
management of our national forests, the evidence presented by 
the chart behind me is pretty clear. Washington State, for 
example, harvests 30 times as much timber and receives 1,200 
times more value per acre than the U.S. Forest Service in the 
State. Idaho, it has 52 times as much timber and 917 times more 
value. Montana has 19 times as much timber and 178 times more 
value.
    While I highlight these three States as an example, we will 
hear from one of our witnesses today about a similar model in 
Wisconsin, that great western Federal land State of Wisconsin, 
as well as lands managed by the Tribe in Idaho.
    So, I am looking forward to hearing more detail from these 
witnesses on how they are able to accomplish--but I actually 
think there is a couple of reasons I can guess on why it is 
actually possible.
    In front of me on the dais here are two stacks of papers. 
The one stack represents 1,212 pages of documents that have 
been prepared by the U.S. Forest Service for a 2000 
Collaborative Landscape Restoration Project in Montana, the 
Colt Summit Hazardous Fuel Reduction Project. And though the 
scoping of this project started over 3 years ago, we are still 
anxiously waiting for them to actually do something and 
conclude the project.
    This other stack of papers in front of me is 29 pages 
prepared by the Idaho Department of Lands for a timber sale 
that was prepared over a matter of months, and recently sold 
for a half-million dollars. And more than that, it is more than 
the U.S. forest timber receipts for the entire State of Idaho 
in 2012. So, 2 percent of the paperwork, nearly 1,000 times the 
result, and this is a lesson we need to take very seriously. 
And I welcome any input from our witnesses as to why we face 
this kind of disparity of red tape and paperwork.
    I also want to say that though I have been talking in terms 
of volume of timber and associated revenues, when it comes to 
forest health it is not about what is being removed from the 
forest, it is about what is being left behind. Forest 
management is complex. There is not a one-size-fits-all 
approach. But we do know that our national forests across the 
board have an overwhelming amount of overgrowth due to a hands-
off management that will be addressed, one way or the other. If 
we fail, as a Federal Government, to manage our forests and our 
insects and disease outbreaks and catastrophic wildfires, we 
will fill that particular void.
    It is not anti-environment to talk about thinning forests 
through sustainable management, but it is both scientifically 
demonstrable and common sense. The witnesses testifying today 
know this, and it is time for the Federal Government to learn 
from their example.
    With that I would like to thank our former colleagues and 
members of this Committee, as well as the witnesses, for being 
here. I look forward to hearing all the testimony.
    I would like to recognize the Ranking Member, Mr. Grijalva, 
for any opening statement he might have.
    [The prepared statement of Mr. Bishop follows:]

           Statement of The Honorable Rob Bishop, Chairman, 
        Subcommittee on National Parks, Forests and Public Lands

    Today the subcommittee is hearing testimony on non-federal forest 
management and what the federal government can learn to better promote 
healthy forests, rural communities, and jobs.
    The last few decades have seen our National Forest System fall into 
complete neglect. What was once a valuable asset has deteriorated into 
a growing liability.
    I believe that our national forests and other public lands are long 
overdue for a paradigm shift. It is time for the federal government to 
cease being an absentee landlord on the 600 million acres of this 
country that it controls and to start leveraging these lands in a way 
that benefits, rather than burdens, the taxpayer and those communities 
who are forced to play host to the federal estate.
    This is the first of several hearings I intend to hold on the issue 
of shifting this paradigm. With respect to better management of our 
national forests--the evidence presented by this chart behind me is 
pretty clear--Washington State harvests thirty times as much timber and 
receives 1,283 times more value per acre than the U.S. Forest Service. 
Idaho: 52 times as much timber, 917 times more value. Montana: 19 times 
as much timber, 178 times more value.
    While I highlight these three states as an example, we will hear 
from one of our witnesses about a similar model in Wisconsin, as well 
as lands managed by the Nez Perce Tribe in Idaho. I'm looking forward 
to hearing more detail from our witnesses on how they are able to 
accomplish this but I can begin to take a guess.
    In front of me on the dais are two stacks of paper. One represents 
the 1,212 pages of documents that have been prepared by the U.S. Forest 
Service for a 2,000 acre Collaborative Landscape Restoration Project in 
Montana--the Colt Summit hazardous fuels reduction project. Though 
scoping for this project began over three years ago, we're still 
anxiously awaiting its implementation.
    The other stack is 29 pages prepared by the Idaho Department of 
Lands for a timber sale that was prepared over a matter of months and 
recently sold for half a million dollars--more than the U.S. Forest 
Service timber receipts for the entire state of Idaho in 2012. Two 
percent of the paperwork, nearly a thousand times the results, this is 
a lesson we need to be taking very seriously and we welcome the input 
to inform management of our national forests.
    I also want to say that though I've been talking in terms of 
volumes of timber and associated revenues, when it comes to forest 
health, it is not about what is being removed from the forest; it is 
about what is left behind. Forest management is complex, there is not a 
one-size fits all approach, but we do know that our national forests 
across the board have an overwhelming amount of overgrowth due to 
hands-off management that will be addressed one way or another--if we 
fail to manage our forests, insect and diseases outbreaks and 
catastrophic wildfire will continue to fill that void. It is not anti-
environment to talk about thinning forests through sustainable 
management, it is both scientifically demonstrable and commonsense. The 
witnesses testifying today know this, and it is time for the federal 
government to follow suit.
    With that, I'd like to thank our former colleague and member of 
this Committee, as well as our other witnesses for being here, and I 
look forward to their testimony.
                                 ______
                                 

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you, Mr. Chairman. And let me thank 
Governor Otter and Chairman Whitman for joining us here today. 
I look forward to your testimony, as well as the other 
witnesses that have been invited today.
    I began my political career in Tucson, Arizona, serving on 
a school board. There are very few issues that are as important 
as the education of children to me. And State trust lands were 
set aside to do just that, to help fund public education in the 
State of Arizona and other States. The National Forest Lands 
were set aside to protect watersheds, and are required to be 
managed in many uses, including timber production, but not 
necessarily tree farms.
    Everyone is frustrated with the Forest Service. They don't 
do enough, they do too little, they are too slow, they are too 
fast, they don't listen, they are too process-oriented. They 
might be the only governmental agency or institution with a 
lower approval rating than Congress, which would surprise me 
terribly, but nevertheless, it is a possibility.
    [Laughter.]
    Mr. Grijalva. We have to recognize that managing forests 
for multi-use in a budget-constrained environment with looming 
reductions on the horizon is a very, very difficult task. It is 
our responsibility to give the agency the tools it needs for 
hazardous fuels reduction, watershed protection, and the 
recreational demands of the American people.
    Last year we put real proposals on the table to address 
wildlands fire risk, including long-term stewardship 
contracting and good neighbor authority. These ideas did not 
get a hearing, and were voted down as they were offered as 
amendments to other pieces of legislation. I hope we take a 
different approach in this Congress. Instead of wasting our 
time exploring radical ideas that won't move in the Senate, we 
should focus on policies that will make our forests healthier 
and our constituents safer.
    Last year the Legislatures of Utah and Arizona adopted 
legislation requiring the Federal Government to transfer title 
of public lands back to the States. Arizona Governor Brewer 
vetoed the legislation, stating it violated the Federal 
Constitution. The same champions of this approach are still 
peddling that snake oil to Idaho, New Mexico, and Wyoming. 
While several of our witnesses today are offering a different 
approach than what State legislators are considering, 
delegating the management of American resources to the States, 
it is still, in and of itself, a radical idea.
    To imagine that the long-standing struggle over the use of 
our National Forests will somehow disappear if they are turned 
over to the States is just pure fantasy. When we look at this 
issue, we cannot forget that different management priorities--
the different management priorities of the Federal forest and 
State trust lands. State trust lands are set up for a singular 
purpose: to produce revenue. Federal forests, on the other 
hand, have a broader mandate, and a wider set of management 
goals, and with multi-use outcomes.
    We will hear today about the role that National Forests 
play in fulfilling the treaty responsibilities that the United 
States has with Native Americans. To hand over control of 
forest lands to States would mean turning our back on this 
unique relationship, not to mention the 60-plus-million 
Americans who get their drinking water from National Forest 
watersheds, and the millions upon millions of recreational 
users.
    These issues are complicated as they are controversial, and 
I look forward to the testimony today. And I yield back, Mr. 
Chairman, thank you.
    [The prepared statement of Mr. Grijalva follows:]

     Statement of The Honorable Raul M. Grijalva, Ranking Member, 
       Subcommittee on Public Lands and Environmental Regulation

    Thank you Governor Otter and Chairman Whitman for joining us today. 
I look forward to hearing your testimony and the testimony from the 
second panel as well.
    I started my political career on the Tucson School Board. There are 
few issues more important to me than the education of our children. 
State trust lands were set aside to fund education. National forest 
lands were set aside to protect watersheds and are required to be 
managed for many uses, including timber.
    Everyone is frustrated with the Forest Service. They don't do 
enough, they do too little, they are too slow, they are too fast, they 
don't listen, they are too process oriented. They might be the only 
government institution with a lower approval rating than Congress.
    But we have to recognize that managing forests for multiple-use in 
a budget constrained environment is a very difficult task.
    It is our responsibility to give the agency the tools it needs for 
hazardous fuels reduction, watershed protection and recreational 
demands.
    Last year we put real proposals on the table to address wildland 
fire risks--including long term stewardship contracting and good 
neighbor authority. These ideas didn't get a hearing and were voted 
down when offered as amendments.
    I hope we take a different approach this Congress. Instead of 
wasting our time exploring radical ideas that won't move in the Senate 
we should focus on policy that will make our forests healthier and our 
constituents safer.
    Last year, the legislatures of Utah and Arizona adopted legislation 
requiring the federal government to transfer title of public lands back 
to the state.
    Arizona Governor Brewer vetoed the legislation stating that it 
violated the federal Constitution. The same champions of this approach 
are still peddling their snake oil to Idaho, New Mexico, and Wyoming.
    While several of our witnesses today are offering a different 
approach than what state legislators are considering, delegating the 
management of American resources to the States is a radical idea. To 
imagine that the long standing struggle over the use of our national 
forests will somehow vaporize if they are turned over to the States is 
just a fantasy.
    When we look at this issue, we cannot forget the different 
management priorities of federal forests and state trust lands. State 
trust lands are set up for a singular purpose: to produce revenue. 
Federal forests, on the other hand, have a broader mandate and wider 
set of management goals.
    We will hear today about the role National Forests play in 
fulfilling the treaty responsibilities the United States has with 
Native American. To hand over control of federal forest lands to the 
states would mean turning our back on that unique relationship, not to 
mention the 60 plus million Americans who get their drinking water from 
a national forest watershed and the millions of recreational users.
    These issues are as complicated as they are controversial. I look 
forward to your testimony.
                                 ______
                                 
    Mr. Bishop. Thank you, Mr. Grijalva. Do you really want to 
set a standard that something has to be able to pass the 
Senate? Can anything pass the Senate?
    [Laughter.]
    Mr. Bishop. That is rhetorical, you know.
    Mr. Grijalva. I realize----
    Mr. Bishop. Yes. I'm pleased to have the Chairman of our 
full Committee here, Mr. Hastings. and I will recognize you, if 
you have a statement, as well.

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Hastings. I do, and I thank you very much for the 
courtesy of allowing me to be here. And I thank you for holding 
this hearing to identify ways on how the Federal land agencies 
can improve their management policies to benefit not only the 
health of our National Forests, but also to spur more jobs and 
economic development for our rural communities and schools that 
depend on these forest lands.
    Today's hearing focuses on case examples of States that 
have successfully managed State-owned forest lands for 
generations to benefit a variety of public uses. Not 
surprisingly, many of these examples exist nationwide. Many of 
these States, despite holding title to only a fraction of the 
land within their boundaries as the Federal Government, are 
able to produce more revenue, create more jobs, and, as a 
result, have better-managed forests.
    In stark contrast, the Federal Government's poor forest 
management results in an ever-increasing overgrowth and disease 
infestation of our forests. And, as a result, habitat is 
destroyed, maintenance backlogs grow, and a proliferation of 
catastrophic wildfires occur.
    At a Longview, Washington field hearing this Subcommittee 
held last May, one witness representing a timber company that 
does business in both California and Washington provided a 
simple yet powerful example of this juxtaposition. He told of 
how his company made a decision to establish operations in the 
State of Washington because of the certainty of timber from 
public lands. But he quickly qualified that, saying that he was 
referring to State trust lands and not National Forest Service 
lands.
    I too want to extend my welcome to Governor Otter from the 
great State of Idaho, a former member of this Committee, for 
his willingness to come and testify on this issue this morning. 
With over 300 million board feet of timber harvested, 
generating over $50 million in receipts last year in Idaho on 
State forest lands, Governor Otter knows firsthand how States 
are providing leadership to improve forest management. And I am 
glad this testimony would be part of the public record.
    I also want to welcome Lewis County Commissioner Lee Grose, 
who will be introduced by my colleague from Washington, Ms. 
Beutler Herrera [sic], who serves as a member of the Washington 
State Board of Natural Resources. That body is set by the 
State's constitution, and it manages 2.2 million acres of 
State-owned forest lands. These forest lands in the State of 
Washington generate an average of $168 million annually to 
support the construction of, principally, education facilities 
in the State of Washington.
    In comparison, the U.S. Forest Service is responsible for 
managing over 9 million acres, nearly four times as much in the 
State of Washington, yet it harvests just 2 percent of the 
growth. And that yields an average of $589,000 in revenue. This 
graph shows the distinct difference in the State of Washington.
    Nationwide, the Forest Service last year harvested 200,000 
acres, or a meager \1/10\ of 1 percent of the total forested 
acreage in the National Forest System. That is less than the 
total acreage of forest lands that burned in my part of the 
State of eastern Washington last fall. And part of that was 
35,000 acres of the endangered spotted owl habitat.
    Rather than offering the all-too-familiar rhetoric of how 
complying with one Federal order or another costs too much, it 
is time for the Federal Government to adjust how it does 
business, and honor its statutory responsibilities to manage 
the forests, including allowing sufficient timber harvested to 
benefit our forested counties and their schools, as well as 
improve declining forest health and reduce the threat of 
catastrophic wildfire.
    In 2011 a high-level Obama Administration Forest Service 
official testifying before this very Subcommittee promised to 
explain the Forest Service efforts to streamline the NEPA 
process to expedite timber management. Two years later we have 
not gotten a response on that.
    And I just want to say, as we go forward, we will be 
dealing with the issue of Secure Rural Schools. But keep in 
mind one issue that I think we forget over and over and over, 
and that is Federal lands not otherwise designated should be 
used for multiple purpose, and that includes commercial 
activity. And commercial activity, in my view, would be 
properly managing our National Forest lands and would result in 
the economic activity that I pointed out that States have had.
    So with that, Mr. Chairman, I thank you for the courtesy, 
and I see my time has expired.
    Mr. Bishop. Thank you, Mr. Chairman. I would at this time 
invite the four witnesses we have to take their seats at the 
dais there, which would include Governor Otter; Mr. Whitman, 
Chairman of the Nez Perce Tribe; Mr. Lee Grose, Commissioner of 
Lewis County, Washington; and Mr. Matt Jensen from the American 
Loggers Council. If you would please take your seat at the 
dais.
    And to introduce this panel, and I am excited about this 
panel. This hearing is not about a specific piece of 
legislation, but it is our opportunity to look forward to 
future legislation based on what we can learn from State, 
local, and tribal governments. So I think we are going to have 
some unique perspective here.
    Now, to introduce our panel to us, I would like to turn 
first to Mr. Labrador from Idaho. Two of the witnesses happen 
to be from your State. And I would appreciate it if you would 
introduce the Governor and the chairman to us.
    Mr. Labrador. Thank you, Mr. Chairman. Good morning, and 
thank you Chairman Bishop and Ranking Member Grijalva for 
convening this important hearing today.
    I would like to welcome two distinguished guests from 
Idaho. One of them is known to all of us as Governor Butch 
Otter, who was a Member of the House, and I think also a member 
of this Committee. And I would also like to welcome Chairman 
Silas Whitman from the Nez Perce Tribe, who are both testifying 
at this hearing today.
    Mr. Chairman, as you are well aware, State management of 
our Federal lands is a high priority of mine. In the last 
Congress I introduced a self-sufficient Community Lands Act of 
2012, which would allow the Governor of our State to appoint 
local boards of trustees to assume management of selected 
Federal forest acreage. Governor Otter will explain today to 
the Committee how the State of Idaho has been a great steward 
of managing the State's lands.
    If you compare the State lands in Idaho to the adjoining 
Federal lands, the difference is astonishing. This fire season 
speaks for itself. In a record fire year, the entire State of 
Idaho had 20 percent of the national acres burned. Of that, 
only 4,674 acres burned on Idaho's Department of Lands.
    The Nez Perce Tribe is the steward of over 57 acres of 
commercial forest land. I would also like to commend Chairman 
Whitman on their fisheries restoration efforts. As you will 
hear today, the Nez Perce Tribe is the third largest employer 
in the Lewiston, Idaho area.
    In Idaho, the economies of rural communities once relied 
upon the timber industry for job creation and tax revenue. Over 
the last several decades, radical environmental groups have 
hindered the ability to develop timber from our public lands. 
Counties that were once dependent upon timber receipts to fund 
schools, roads, and daily operations were left desolate and 
broke. As we looked at the reauthorization of county payments, 
SRS, the House continues to push for firm management of our 
public lands as a factor in the equation.
    I commend the Chairman for his work on this issue, and I 
look forward to working with you as we advance legislation. And 
I look forward to hearing from the two witnesses from Idaho 
today. Thank you very much.
    Mr. Bishop. Thank you, Raul, I appreciate that. I would 
also like to recognize at this time Ms. Herrera Beutler, who is 
here with us. The Commissioner happens to be from the great 
State of Washington, and I would ask her if she would introduce 
him to us.
    Ms. Herrera Beutler. Thank you so much, Mr. Chairman. I am 
honored to join this Committee for this very important hearing, 
and I want to thank Chairman Bishop and Ranking Member Grijalva 
for allowing me to join.
    It is a pleasure to introduce Lewis County, Washington 
Commissioner Lee Grose.
    Mr. Bishop. You are not on. Nothing personal.
    [Laughter.]
    Ms. Herrera Beutler. Lewis County, like so many Washington 
State counties, was once a thriving timber community with 
thousands of timber jobs. And roughly a dozen mills. And while 
the county is still doing well, thanks largely to each of its 
fine commissioners, timber is no longer a major source, in 
large part, due to the mismanagement of Federal forests.
    Commissioner Grose is a proud native of the Northwest, and 
has spent his entire life in and around our forests. As was 
mentioned, he is a member of the Washington State Board of 
Natural Resources. His professional and personal experience 
gives him the expertise to speak to this issue and its impact 
not just on our forests, but on the species in our forests, the 
endangered species, especially the endangered American wage 
earner.
    So, Commissioner Grose, thank you so much for making this 
trip across the country to speak to us today, and I look 
forward to hearing your testimony.
    Mr. Bishop. Thank you. And we welcome you as part of the 
panel. Sorry about the microphone. We just wanted to emphasize 
when you went into the ESA portion of the speech, so that could 
be heard definitely.
    Mr. Jensen, I am happy to have you here as well. You lost 
in the draw here, because I am the one who has to introduce 
you. But it is great. We are going to have three people who 
manage lands and are responsible for them. You are the one that 
actually has to work and live with the management decisions. 
And it is nice to have somebody from what I consider to be the 
East. I mean anything east of Fort Collins, to me, is the East. 
Kansas. Kansas is the East.
    [Laughter.]
    Mr. Bishop. But it is nice to have someone from Wisconsin 
here to illustrate how this is a situation and an issue that 
transcends the entire Nation. It is not just from those of us 
who are in the West, from the Rocky Mountain States. So I 
appreciate all of you being here.
    Now, for any of you who have not been here before, to quote 
former Member Radanovich, the lights in front of you are just 
like a traffic signal. So when it is green you have the chance 
of going, when it is yellow you have to speed up, and then when 
it is red you have to stop.
    [Laughter.]
    Mr. Bishop. So that we can get through everything, your 
entire written testimony is made part of the record. We will 
now ask that you spend up to 5 minutes giving an oral portion 
of that testimony to us. And the same thing will happen. When 
we go through the round of questions, we will also have another 
5 minutes per person to ask questions, and we will have as many 
rounds as we need to give everyone an opportunity of asking a 
pertinent question.
    So, with that, Governor Otter, Butch, C. L., whatever you 
prefer right here.
    Governor Otter. Butch will do.
    Mr. Bishop. We are happy to have you back here again, where 
you belong. And thank you for all the hard work you do for the 
people of Idaho. You are recognized for 5 minutes to elaborate 
on the written testimony that you have given us.

          STATEMENT OF THE HON. C.L. ``BUTCH'' OTTER, 
                    GOVERNOR, STATE OF IDAHO

    Governor Otter. Well, thank you, Mr. Chairman, Ranking 
Member and members of the Subcommittee. On behalf of the State 
of Idaho, I am very thankful for this opportunity to share my 
thoughts with you about how State management of forests is more 
effective than Federal management, and has the potential to 
generate much more revenue. It is an honor and a privilege, 
indeed, for me to be back in the House Resources Committee.
    Idaho's total land size is approximately 53.5 million 
acres, of which the Federal Government owns and manages 
approximately 34.5 million acres. The Forest Service is Idaho's 
largest Federal land manager, with approximately 20.4 million 
acres. And the State of Idaho owns just under 1.3 million acres 
of forest land, and the private land owners in the State an 
additional 2.8 million acres.
    According to information available from the Forest Service 
and the Bureau of Land Management, the total volume of saw 
timber on the Federal forest lands in Idaho equals 167.6 
billion board feet of timber. Even though the Forest Service is 
the largest forest land manager in Idaho, the State and private 
forest provide over 90 percent of all the wood milled in our 
State. Timber harvest on Federal lands in Idaho are the lowest 
that they have been since 1952.
    As you can see from this data, the larger forest land 
manager in Idaho is woefully trailing in its harvest 
activities. Even more troubling is the amount of forest lands 
that burn each year. It appears to folks in Idaho that the 
Federal Government would rather see a valuable resource go up 
in smoke than harvest it and create much-needed jobs for rural 
communities in Idaho.
    Almost 2 million acres burned in Idaho last year, meaning 
our State accounted for about 20 percent of the acres burned 
nationwide. But on the State-protected lands in Idaho, fire 
occurrences for 2012 was only 44 percent of the 20-year 
average. And the acreage burned were only about half of the 20-
year average.
    Current Federal land management processes have resulted in 
uncertain decision-making, destabilization of resources, 
dependent communities, deterioration in the environmental 
quality of Federal lands. In short, the system is broken, and 
significant changes to these processes are necessary.
    With that being said, I am not telling you anything that 
you don't already know and haven't already said this morning. 
In fact, the Government Accounting Office reported ``The most 
extensive and serious problem related to the health of National 
Forest in the interior West is the over-accumulation of 
vegetation, which has caused an increasing number of large, 
intense, uncontrollable, and catastrophically destructive 
wildfires.'' We must refocus on the desirable outcomes of 
Federally managed lands.
    An idea for improving Federal management was outlined by 
the Idaho Federal Lands Task Force in 1998 under the leadership 
of then-Governor Phil Batt. Governor Batt recommended using the 
trust model, which guides the management of State lands in many 
of our States. A trust clarifies in absolute terms the 
fundamental objectives in managing those lands, the 
beneficiaries and, by extension, the mission and the 
responsibilities of the trustees and managing agencies. The 
clarification of mission and objectives is in stark contrast to 
the Federally administered lands where the mission and 
objectives for management has been confused and contorted after 
a century of statutory and regulatory changes, and an unhealthy 
dose of judicial activism.
    A trust consists of three essential elements. First, there 
must be a tangible property interest. Second, there must be a 
clear expression of intent, whereby a settlor defines the 
purpose of the trust. Finally, there must be a beneficiary. A 
key advantage of a trust is that since it is a legally defined 
entity, its structure and mission cannot be changed without 
legal action and significant effort. The mission is clear. The 
trustee is obliged to manage trust resources for the benefit of 
the beneficiaries. Mission clarity gives trustees, the trust 
managers, a well-defined purpose to guide decision-making. It 
would be inappropriate to suggest an abrupt move to a different 
management system for Federal lands without first testing the 
organizational, management, and the results of the system on a 
smaller scale.
    A pilot project would demonstrate in more direct fashion 
how an alternative approach would be applied on the ground. A 
National Forest trust could be created through a trust 
instrument, and executed by the settlor of the trust, the U.S. 
Congress. The trust instrument would be specific legislation 
passed by Congress setting aside a specific National Forest and 
establishing the intent of the trust, the trustees, and the 
beneficiaries, as well as the structure of the trust 
management.
    This concept is not new. The trust model is widely used for 
135 million acres of land in 22 different States. It is 
enforceable through fiduciary responsibility of the trustees, 
managers to beneficiaries, and the managers are accountable to 
report the financial transactions. There would be a stable 
source of funding for resource management and local communities 
without lawsuits and a broad appeal process fomenting 
uncertainty.
    Because it is based upon the principle of clarity, 
accountability, enforceability, and perpetuity, trust land 
management may be an effective approach to achieving 
sustainable resource management. The trust model works well in 
Idaho and other places for our endowment lands.
    In closing, I urge you to take a look at the State 
management trust model. Congress has provided direction to the 
Forest Service since the inception of the agency, and it is 
time for additional direction, certainly redirection. Wildfires 
are increasing in severity and size. Insects and disease are 
killing large tracts in our forests. Forest stands are 
overgrown, and several species are impacted, and communities 
and commerce are disrupted. Now is the time for positive 
action, before we lose more of our valuable Forest Service.
    Mr. Chairman, and members of the Subcommittee, I thank you 
for this opportunity to be before you. Thank you.
    [The prepared statement of Governor Otter follows:]

           Statement of The Honorable C.L. ``Butch'' Otter, 
                        Governor, State of Idaho

    On behalf of the State of Idaho, I want to thank Chairman Bishop 
and the Subcommittee for this opportunity to share my thoughts with you 
about how state management of forest lands is more effective than 
federal management and has the potential to generate more revenue. It 
is an honor and a privilege to be here today.
    Idaho's total land size is approximately 53.5 million acres, of 
which the federal government owns and manages approximately 34.5 
million acres.
    The USDA Forest Service (Forest Service) is Idaho's largest federal 
land manager, with approximately 20.4 million acres--about 4.4 million 
acres of wilderness, 9.3 million acres of inventoried roadless areas 
and 16 million acres of forest land. The State of Idaho owns just under 
1.3 million acres of forest land, and private landowners own an 
additional 2.8 million acres.
    According to information available from the Forest Service and the 
Bureau of Land Management (BLM), the total volume of sawtimber on all 
federal forested land in Idaho equals approximately 167.6 billion 
board-feet of timber on the 17.2 million acres of federal forested 
lands administered by those two agencies.
    Even though the Forest Service is the largest forest land manager 
in Idaho, the State and private forests provide over 90 percent of the 
wood milled in our state. Timber harvests on federal lands in Idaho are 
the lowest they have been since 1952, and less than 1 percent of 
national forests are logged nationwide each year.
    In 2012, the Forest Service harvested an estimated 100 million 
board-feet of timber in Idaho. In stark contrast, the State of Idaho 
harvested 356 million board-feet and private forest owners harvested 
634 million board-feet.
    Estimates available at this time indicate the Federal government 
paid approximately $195 million to suppress wildfires in Idaho in 2012. 
Nationally, the cost of 2012 fires was approximately $1.6 billion.
    Outside of costs for fire suppression, the BLM and the Forest 
Service spent approximately $275 million to manage their lands in Idaho 
in 2012. The BLM spent approximately $117 million and the Forest 
Service spent approximately $158 million. These numbers do not include 
the Forest Service's costs associated with research (nearly 100 
scientists and employees in Boise, Moscow, and other locations in 
Idaho), the Forest Service's portion of the National Interagency Fire 
Center (nearly 100 full-time staff), and other regional office Forest 
Service employees.
    As you can see from this data, the largest forest land manager in 
Idaho is woefully trailing in its harvest activities. This adds to our 
concerns because Idaho has some of the most productive forests in the 
nation. Idaho forests grow 2.3 times more wood than is harvested each 
year, resulting in overgrown, unhealthy federal forests.
    Even more troubling is the amount of forest lands that burn each 
year. It appears to folks in Idaho that the federal government would 
rather see a valuable resource go up in smoke than harvest it and 
create some much-needed jobs for rural communities.
    Idaho experienced a historic wildfire season in 2012, bringing the 
discussion about public land management into sharp focus. The true cost 
of Idaho wildfires is more than just dollars spent on suppression. It 
includes impacts on the environment and public health, loss of life and 
property, and lost opportunities for improving the lives of our 
citizens through the economic benefits offered by healthy, actively 
managed forests and rangelands.
    There were about 9.1 million acres burned nationally in 2012. Of 
that, 1.75 million acres burned in Idaho, meaning our state accounted 
for about 20 percent of the acres burned nationwide, but on state-
protected lands in Idaho, fire occurrence for 2012 was only 44 percent 
of the 20-year average, and the acres burned were only about half of 
the 20-year average.
    Current federal land management processes have resulted in 
uncertain decision making, destabilization of resource-dependent 
communities, and deterioration in environmental quality on federal 
lands. It also is important to bear in mind that the activities of some 
environmental groups greatly exacerbate this problem. In short, the 
system is broken, and significant changes to these processes are 
necessary.
    With that being said, I am not telling you anything you don't 
already know. In fact, the Government Accounting Office reported (in 
GAO-RCED-9965) ``The most extensive and serious problem related to the 
health of national forests in the Interior West is the over-
accumulation of vegetation, which has caused an increasing number of 
large, intense, uncontrollable, and catastrophically destructive 
wildfires.''
    We must refocus on the desirable outcomes of federally managed 
lands. Those outcomes include maintaining and enhancing proper 
environmental stewardship; enhancing fish and wildlife habitat; 
promoting community stability and resiliency; stabilizing land 
management agency budgets; improving certainty and accountability with 
resource management decisions; and managing federally administered 
lands in a fiscally responsible manner.
    One of the primary problems leading to gridlock in the management 
of federally administered lands is the complex array of statutes and 
regulations, some of which conflict. Some modification of these 
mechanisms is needed to clarify the purpose and enhance effective 
outcomes. But by the same token, these agencies have not utilized the 
tools that Congress has provided through initiatives like the Healthy 
Forests Restoration Act.
    Long-term leasing of federal lands could be extended greatly, not 
only as it has been done for mineral leasing, but also for other 
commercial uses such as logging. The State of Idaho has lengthened its 
maximum lease terms from 10 years to 20 years.
    Another idea for improving federal management was outlined by the 
Idaho Federal Lands Task Force in 1998 under the leadership of then-
Governor Phil Batt. Governor Batt recommended using the ``Trust 
Model,'' which guides the management of state lands in many states. A 
trust clarifies in absolute terms the fundamental objectives in 
managing those lands, the beneficiaries and, by extension, the mission 
and responsibilities of the trustees and managing agencies. The 
clarification of ``mission'' and ``objectives'' is in stark contrast to 
federally administered lands where the mission and objectives for 
management have been confused and contorted after a century of 
statutory and regulatory change and an unhealthy dose of judicial 
activism.
    A trust consists of three essential elements. First, there must be 
a tangible property interest. Second, there must be a clear expression 
of intent whereby a settlor defines the purpose of the trust and 
``manifests an intention to impose duties which are enforceable in the 
courts.'' Finally, there must be a beneficiary--an entity delineated by 
the settlor as the recipient of the benefits of the trust. A key 
advantage of a trust is that, since it is a legally defined entity, its 
structure and mission cannot be changed without legal action and 
significant effort. This provides stability in planning and decision 
making, and is a necessary element of the foundation of long-term 
resource management.
    The mission is clear. The trustee is obligated to manage trust 
resources for the benefit of the beneficiary. Mission clarity gives 
trustees and trust managers a well-defined purpose to guide decision 
making. The clarity of the trust mission significantly differs from the 
existing process of uncertain and often conflicting objectives and 
goals leading to the cumbersome and often delayed federal land 
management decision making.
    It would be inappropriate to suggest an abrupt move to a different 
management system for federal lands without first testing the 
organization, management and result of that system on a smaller scale. 
A pilot project could demonstrate in a more direct fashion how an 
alternative approach would be applied on the ground.
    The development of a trust pilot project would require delineation 
of the elements of the trust, as well as the trustee and trust 
managers.
    A ``National Forest Trust'' could be created through a trust 
instrument and executed by the settlor of the trust, the U.S. Congress. 
The trust instrument would be specific legislation passed by Congress 
setting aside a specific national forest, and establishing the intent 
of the trust, the trustees, the beneficiaries, as well as the structure 
for the trust management.
    This concept is not new. The Trust Model is in widespread use--135 
million acres of state land in 22 states. There is clarity of mission. 
Perpetuity principle enhances sustainable resource management to 
conserve the principle assets of the fund. It is enforceable through 
fiduciary responsibility of trustees and managers to beneficiaries, and 
managers are accountable to report financial transactions. Public 
involvement opportunities are the same as under the current situation. 
There would be a stable source of funding for resource management and 
local communities without lawsuits and broad appeal processes fomenting 
uncertainty.
    Because it is based on principles of clarity, accountability, 
enforceability and perpetuity, trust land management may be an 
effective approach to achieving sustainable resource management. The 
``Trust Model'' works well for Idaho's endowment lands. We have a 
sustainable, healthy resource on State lands which provides income for 
the public school children and the eight other beneficiaries of the 
trust.
    In closing, I urge you to take a look at the state management trust 
model. Congress has provided direction to the Forest Service since the 
inception of the agency, and it is time for added direction--certainly 
redirection. Wildfires are increasing in severity and size; insects and 
disease are killing large tracts in our forests; forest stands are 
overgrown and seral species are impacted; and communities and commerce 
are disrupted. Now is the time for positive action before we lose more 
of our valuable forest resources.
    Mr. Chairman and members of the Subcommittee, thank you for your 
time and careful consideration of this critical issue.
                                 ______
                                 
    Mr. Bishop. Thank you, I appreciate that. Chairman Whitman, 
we appreciate you being here. Same thing. If we could hear your 
oral testimony, I would appreciate it at this time.
    Mr. Whitman. Mr. Chairman, I don't know if Butch's time 
overlaps with mine. I only have 3 minutes?
    [Laughter.]
    Mr. Bishop. Can you pull the microphone closer to you so we 
can hear you?

        STATEMENT OF THE HON. SILAS WHITMAN, CHAIRMAN, 
              EXECUTIVE COMMITTEE, NEZ PERCE TRIBE

    Mr. Whitman. Thank you, Chairman Bishop and members of the 
Subcommittee on Public Lands and Environmental Regulation. I am 
Silas Whitman, Chairman of the Nez Perce Tribal Executive 
Committee, Nez Perce Tribe. I appreciate this opportunity to 
provide a brief testimony on the key understanding or 
underlying issue of this hearing, the States' potential 
management of National Forest lands.
    All of us who share in management in Idaho in our own 
forest and range lands, of course, from private companies to 
sovereigns like the State of Idaho and Nez Perce Tribe, we have 
valuable lessons to share about how we manage our lands to 
produce the desired and mandated outcomes. Sometimes the 
outcomes are profits, shareholders, jobs, money to support 
schools. In any event, we manage our lands to produce jobs and 
revenue.
    More importantly, we manage our lands to benefit fish and 
wildlife habitat, healthy ecosystems. Balancing these multiple 
interests is difficult. It becomes a choice of providing social 
service and employment for members or protecting fish and 
wildlife habitat. That is not a tradeoff we are willing to 
make. We found that to avoid being forced to sacrifice one 
issue over another is to find ways to diversify, economically. 
Among my people and our traditions, there are no in-betweens. 
The left, right, plus, minus, positive, negative.
    We encourage that, among our rural communities within our 
reservation lands, that we have seen opportunities to work with 
the Tribe through our enterprises, our fisheries, watershed, 
and natural resources, that what we administer has allowed us 
to become the third-largest employer in our region, next to 
Clearwater Paper and the regional medical center.
    However, as land resource managers, we all have ideas and 
suggestions on the ways the Nation's public lands might be 
strategically managed to achieve the Nation's mandates. In 
addition, we do have a relationship, through the Nation's 
public lands, that predates existence of the United States 
itself.
    We are the only Federally adjudicated Tribe in the State of 
Idaho, 13 million acres traditional homeland. Within that, 
those reserved rights that the United States has secured to the 
Tribe, these allow us the ability of doing the exercises that 
we have, and the United States honors that in the case of the 
forest lands through the U.S. Forest Service, as it carries out 
its mission.
    The notes that I have are cogent to all that, as I have 
seen and heard that the Nez Perce Tribe is naturally concerned 
on any proposals made that could adversely affect these treaty 
activities within the National Forest, whether we are fishing, 
hunting, gathering plants, firewood, pasturing animals, et 
cetera.
    Indian Tribes in general with this same kind of 
relationship rely on the fact that they have a treaty-based, 
legally established fiduciary relationship with the United 
States and its Federal agencies. These are obligations the 
United States cannot subcontract away. The United States, in 
its treaty-based fiduciary relationship with Indian Tribes must 
recall that these rights are reserved and were reserved, and 
secured to the Tribes, in consideration for the United States 
obtaining, essentially, all of the lands that make up the 
western United States, public and private. That includes the 13 
million acres that the Nez Perce had secured and is Federally 
adjudicated.
    The Tribe does not disagree with the testimony of others 
here today. To the extent that they question the strategic land 
management decision of the U.S. Forest Service. Where we 
respectfully differ is with the proposal that any Federal land 
management could or should be transfered to State control is 
that is also part of the United States heritage that the 
citizens enjoy.
    We first hold responsibility for management in care of 
these lands. They should be addressed through national 
dialogue. And for us, that has been something that we have 
worked closely with Senator Crapo from Idaho on what is called 
the Clearwater Basin Collaborative, where we have, with a 
dialogue, combined representatives of sovereigns, the industry, 
and the public, and we have advanced our efforts to incorporate 
all the resources and all of us having a hand, both hands, in 
these resources.
    In the end we consider the co-management of opportunities 
for our National Forests. Indian Reserve treaty rights must be 
respected as a baseline for legal primacy, and that we be 
included in any co-management or discussions and/or resolution 
to that issue.
    With that, Mr. Chairman, I know that we have the technical 
staff available to us that is beyond compare. We would have the 
appreciation of going through that, and if we had more time we 
could get into specifics on a technical level. Thank you, Mr. 
Chairman.
    [The prepared statement of Mr. Whitman follows:]

          Statement of The Honorable Silas Whitman, Chairman, 
                  Nez Perce Tribal Executive Committee

    Thank you, Chairman Bishop and members of the Subcommittee on 
Public Lands and Environmental Regulation. I am Silas Whitman, Chairman 
of the Nez Perce Tribal Executive Committee. I appreciate this 
opportunity to provide brief testimony on what is the key underlying 
issue of this hearing: potential state management of National Forest 
lands.
    All of us who manage our own forests and rangelands--from private 
companies to sovereigns like the State of Idaho and the Nez Perce 
Tribe--have valuable lessons to share about how we manage our lands to 
produce desired--and mandated--outcomes. Sometimes those outcomes are 
profits for shareholders in the case of private lands, or jobs and 
money to support schools in the case of state lands. The Nez Perce 
Tribe manages its lands to produce jobs and revenue for all forms of 
social services. But just as importantly, we manage our lands to 
benefit fish and wildlife habitat and healthy ecosystems. Balancing 
multiple interests is difficult, but the Tribe rejects the concept of a 
``zero sum'' competition between providing social services and 
employment for our members and protecting fish and wildlife habitat. 
We've found that to avoid being forced to sacrifice one interest for 
another is to find ways to diversify economically. That too has been 
difficult, and we appreciate the understanding and support that 
Governor Otter has offered our efforts. We are encouraged that many of 
our neighbors in the rural communities in and around the Nez Perce 
Reservation have come to see the opportunities that exist to work with 
the Tribe--through our enterprises, our fisheries, watershed, and 
natural resources work, and the grants and contracts we administer. We 
are the third largest employer in the Lewiston, Idaho, area--behind 
Clearwater Paper Co. and the ATK corporation.
    As managers of our own lands, we all have ideas and suggestions on 
ways the nation's public lands might be strategically managed to 
achieve the nation's mandates. In addition, the Nez Perce Tribe has a 
relationship with what are today this nation's public lands that 
predates the existence of the United States itself. Further, the Nez 
Perce Tribe reserved rights--that the United States also secured to the 
Tribe--in its 1855 Treaty that the Tribe exercises on these public 
lands. These rights are also the foundation for the Tribe's role as a 
co-manager of its Treaty resources. We are committed to ensuring that 
the United States honors its Treaty obligations as it manages the 
nation's public lands, and we have assumed an active role on the ground 
with the Forest Service as it carries out its mission.
    For thousands of years, the Nez Perce people--Nimiipuu in our 
language--occupied a geographic area encompassing a large portion of 
what is today the inland Northwest United States. The territory 
occupied exclusively by the Nez Perce, over 13 million acres, stretched 
from the continental divide forming the present border between Idaho 
and Montana, to the Blue Mountains of northeast Oregon and southeast 
Washington. To give you an idea of the breadth of the even larger area 
our people utilized, this ranged from Celilo Falls on the Columbia to 
buffalo country in present-day Montana and Wyoming.
    Under the 1855 Treaty between the Nez Perce Tribe and the United 
States, the Tribe ceded to the United States aboriginal title to land 
encompassing most of present day Northeast Oregon, Southeast Washington 
and Central Idaho. Treaty with the Nez Perces, June 11, 1855, Article I 
(12 Stat. 957). In Article II of the Treaty, the Tribe reserved at that 
time an exclusive Reservation homeland over much of the same area.
    Significantly, in Article III of the 1855 Treaty, the Tribe in key 
consideration for the land cession, reserved, ``[t]he exclusive right 
of taking fish in all the streams where running through or bordering 
said reservation . . . also the right of taking fish at all usual and 
accustomed places in common with citizens of the Territory; and of 
erecting temporary buildings for curing, together with the privilege of 
hunting, gathering roots and berries, and pasturing their horses and 
cattle upon open and unclaimed land.'' The subsequent 1863 Nez Perce 
Treaty with the United States reduced the size of the land reservation 
but otherwise preserved the 1855 Article III reserved rights. Preface 
and Article VIII (14 Stat. 647). The Nez Perce Tribe and its people 
continue to exercise their 1855 treaty-reserved rights, and to monitor, 
engage and co-manage cultural and natural resource issues, throughout 
Nez Perce treaty territory in the inland Northwest.
    These facts are relevant here today because the Nez Perce people 
particularly exercise their treaty-reserved rights--and have a role as 
co-managers--on all of the National Forests lying within our aboriginal 
territory and all of the National Forests where we retain treaty-
reserved rights. This includes eleven (11) National Forests--in Oregon, 
Washington, Idaho, Montana, and Wyoming. It is well-established law 
that our treaty-reserved rights to use resources on ``open and 
unclaimed lands'' apply to U.S. National Forests. E.g., State of Idaho 
v. Arthur, 74 Idaho 251, 261 P.2d 135 (1953) cert. denied, 347 U.S. 937 
(1953). The U.S. Constitution in turn provides that United States 
treaties, such as the 1855 Nez Perce Treaty, are ``the supreme law of 
the land.'' U.S. Const., Article VI.
    With this history and these long-held interests, the Nez Perce 
Tribe is naturally concerned when any proposal is made that could 
adversely affect the treaty-reserved activities of its members within 
U.S. National Forests--whether fishing, hunting, gathering plants or 
firewood, or pasturing animals. Indian tribes rely on the fact that 
they have a treaty-based, legally-established fiduciary relationship 
with the United States and its federal agencies. These are obligations 
the United States cannot subcontract away. The United States, in its 
treaty-based fiduciary relationship with Indian tribes, must recall 
that these rights were reserved--and secured to tribes--in 
consideration for the United States obtaining essentially all of the 
lands that now make up the Western United States, public and private.
    The Tribe does not disagree with the testimony of others here today 
to the extent they question strategic land management decisions of the 
U.S. Forest Service. Where the Tribe respectfully differs is in any 
proposal that federal land management decisions could or should be 
transferred to state control. Federal public land, whether National 
Forest, National Park, or BLM range, is a part of the national heritage 
of all American citizens, across all states. It is the United States, 
through its executive agencies, that therefore should hold first 
responsibility for management and care of these lands. If there are 
strategic problems, they should first be addressed through the national 
dialogue that guided by our federal constitutional process, however 
messy that may be at times. Mindful of these national mandates, Senator 
Crapo's championing of the Clearwater Basin Collaborative, which 
includes representatives of sovereigns, industry, and the public, has 
helped this dialogue advance at a regional level with respect to the 
Clearwater-Nez Perce National Forest.
    If in the end there are carefully considered co-management 
opportunities for our National Forests, Indian treaty-reserved rights--
as a baseline--must be respected for the legal primacy they hold. And 
Indian tribes themselves must be included in any co-management 
discussion and resolution. The Tribe looks forward to a discussion of 
the natural land management role the Nez Perce Tribe--or other tribes 
in other areas--will play. The National Forests are lands Indian tribes 
and their technical staff know as well as anyone in the nation, and 
their management participation--under any federal co-management 
scenario--must be acknowledged.
    The Tribe is humble about the on-the-ground work we do on the 
National Forests and our accomplishments. It should be understood, 
though, that the Tribe--working with the Bonneville Power 
Administration--brings more watershed and fisheries restoration funding 
to the National Forests in our area than any other entity including the 
Forest Service itself. We have received national awards for our work in 
restoring fisheries habitat on National Forest lands, and have 
partnered with the Forest Service in monitoring big horn sheep and 
other wildlife to assist the Forest Service in managing these lands for 
these species. These are successes for the resources, for jobs, and 
most of all are successes for all who have an interest in the nation's 
public lands.
    I thank you again for the opportunity to provide testimony and for 
your time and consideration of this statement.
                                 ______
                                 
    Mr. Bishop. Thank you. I appreciate it.
    Commissioner Grose.

       STATEMENT OF THE HON. F. LEE GROSE, COMMISSIONER, 
                    LEWIS COUNTY, WASHINGTON

    Mr. Grose. Good morning, Chairman Bishop and Ranking Member 
Grijalva, members of the Subcommittee. I am Lee Grose, Lewis 
County, Washington, Commissioner. Last year I gratefully 
accepted the election of my peers across Washington State to 
represent them on the Washington Board of Natural Resources, or 
the BNR. I am also a private land owner who owns some timber 
land, and I harvest timber off of that land and manage it 
effectively, being able to take 3 different cuttings off of 
that 40-acre piece of land in the last 10 years, and still have 
timber growing.
    But the BNR is made up of representatives of the 
beneficiaries of various trusts that are administered and 
managed by the Department of Natural Resources in Washington 
State. It is in the interest of the BNR to maintain a 
sustainable, vibrant forest industry to allow for reliable, 
consistent flow of revenue to the trusts.
    In its role as manager of these trusts, the Washington 
Department of Natural Resources oversees 3.2 million acres of 
land, of which 2.1 to 2.2 million acres is forest land. In 
2011, this forest land yielded around 679 million board feet of 
timber and raised $220 million to the trusts. The average price 
received per thousand board feet was $308. And only about 
32,000 of the 2.1 million acres was harvested. In other words, 
referring to Representative Hastings's comments, less land was 
harvested in timber than was burned in one fire.
    Sixteen thousand six hundred acres were planted with 200 to 
300 trees per acre for future harvest. Of this revenue 
generated, 75 to 79 percent went directly to the trusts, the 
other 21 to 25 percent being used for the overhead to pay for 
the operation.
    In stark contrast, the U.S. Forest Service is responsible 
for 9.3 million acres of forest land in Washington State. And 
in 2010, 129 million board feet was harvested with revenue of 
roughly $638,000. Comparison: 670 million board feet, $220 
million, 129 million board feet, $638,000. The Gifford Pinchot 
National Forest, where I live, is a good case in point. In 
2010, 22 million board feet of timber, including firewood, 
harvested on the 1,320,000 acres. I had been told that they 
hoped to harvest 30 million board feet this year, still way 
below the 50 million board feet recognized by the Northwest 
Forest Plan. Fifty million board feet would be harvested on 
approximately 1,700 acres of land, using the Washington State 
model. This, in a forest that produces, by very conservative 
estimates, 1.3 billion board feet a year.
    On a national scale, the 193 million acres of land under 
the management of the U.S. Forest Service produced $180 million 
a year, less than $1 per acre. Yet the budget for the Forest 
Service was over $2.3 billion. As overseers of Washington 
State's timberland, the BNR is very conscious of its 
responsibilities to the environment. The Department of Natural 
Resources is signatory to a 70-year Habitat Conservation Plan 
to ensure compliance with the Endangered Species Act. Rather 
than placing an age on old growth, as many have in the past, 
the BNR uses a definition of very large diameter structurally 
unique trees to meet the retention requirements of our HCP.
    In fact, the controversy over old growth is moot for 
several reasons; one, there is a huge fear of litigation; two, 
old growth, in general, are too large for most existing bills 
any more; and three, there is a good supply of trees in the 40 
to 60-year range that are available for harvest.
    Healthy forests provide us with an added benefit, as they 
are a major medium for carbon sequestration, widely believed to 
be maximized in trees up to 80 years old.
    Fire suppression is another key difference between State 
and Federal management. The Forest Service has used what I 
would call passive management of fire suppression, whereas the 
State uses active management that is actually trying to put the 
fires out. The cost of passive management on just one 18-acre 
fire that I know of cost over $10 million last year.
    In conclusion, the Washington State Forest Management model 
has the capability of providing a reliable source of revenue to 
various beneficial entities which now receive Federal funds in 
the form of Secure Rural Schools payments. This model could 
eliminate the need for other budgetary considerations from 
Congress by cutting administrative costs, providing for better 
management of our national forests, and yielding more timber on 
a long-term basis, and providing for more revenue for our 
local, State, and National budgets.
    Thank you very much for the opportunity to speak with you 
today, and I look forward to hearing your legislation.
    [The prepared statement of Mr. Grose follows:]

        Statement of The Honorable F. Lee Grose, Commissioner, 
                        Lewis County, Washington

    Good Morning, Chairman Bishop, Ranking member Grijalva and members 
of the committee. My name is Lee Grose and I am a County Commissioner 
from Lewis County, Washington. Last year I was grateful to be elected 
by my peers from across Washington State as a member of the Board of 
Natural Resources which oversees the trust land responsibility of the 
Washington State Department of Natural Resources (DNR).
    I own a small tree farm in the midst of the Gifford Pinchot 
National Forest in the heart of the Cascade Mountains where conifers 
grow like weeds. I live here to fully appreciate my ``little piece of 
heaven'' as a colleague termed my property. Over the last 10 years, I 
have personally done three different phases of harvest from a selective 
cut to a pre-commercial thinning project to a damage harvest from a 
wind storm. I appreciate the opportunity to appear before you today on 
behalf of the timber counties of Washington State and their trust 
relationship with the Department of Natural Resources.
    The Washington State Department of Natural Resources (DNR) is 
responsible for the administration of roughly 2.1 million acres of 
working forests.
    DNR has administrative responsibility over these lands and provides 
for a fiscally responsible continued yield program of sustainable tree 
harvests.
    In 2011, state trust lands yielded a harvest of 560 million board 
feet (MMBF) of timber which generated $220,000,000 in revenue from 2.1 
million acres of land managed on behalf of the trusts.
    By contrast, National Forest lands in Washington yielded 129 
million board feet (MMBF) generating revenue of only $638,000 on 9.3 
million Acres or one fifth of what the state produced on a quarter of 
the land base.
    Stated differently, the state produces 500% more actual timber 
revenue on less than one quarter of the land base of that held by the 
U.S. Forest Service. Again, 9.3 million acres of federal land compared 
to 2.1 million acres of state land.
    This comparison is even more striking when you look at the relative 
dollars generated per board foot; that is $308 per MBF on state land 
vs. $5.00 per MBF on Forest Service Land.
    The U.S. Forest Service is woefully behind the state in both timber 
produced and dollars generated. Any thought that current federal land 
management practices could provide levels of harvest which would 
provide revenue to support local governments or schools and 
universities is folly. The Forest Service would do well to follow the 
state's lead in order to help sustain local economies particularly in 
our rural communities and provide revenues for Secure Rural Schools 
(SRS) funding by the Congress. Congress, by legislation, should require 
the Forest Service to follow the state of Washington's management 
model.
    For example, the Gifford Pinchot National Forest, in an extremely 
conservative estimate, allows for a harvest of around of 300 MMBF per 
year of timber even though it has been scientifically verified that the 
actual growth in the forest is well over one billion board feet per 
year. Yet, the Northwest Forest Plan provides for a harvest level goal 
on the Gifford Pinchot National Forest (1,348,000 total acres of forest 
land) of only 50 MMBF. As of 2010, actual cuts by the Forest Service in 
the Gifford Pinchot were only 22 MMBF harvested and that includes non-
traceable firewood permits, and the Forest Service doesn't even know 
whether those permits were ever used or the wood removed.
    This bears repeating:
        <bullet>  This Gifford Pinchot National Forest is capable of 
        producing 300 MMBF of timber per year;
        <bullet>  The Northwest Forest Plan goal is to cut 50 MMBF 
        every year (or one sixth of what the forest actually grows);
        <bullet>  We are actually only cutting 22 MMBF including 
        firewood;
        <bullet>  The Forest Service says it would like to increase 
        cuts to 30 MMBF;
        <bullet>  Look at the lost potential of this National Forest!
        <bullet>  All of this is symptomatic of a national 
        embarrassment when compared to what the state of Washington DNR 
        is actually accomplishing.
    Here's the most damning statistic of all:
    The entire U.S. National Forest system consists of 193,000,000 
acres and in 2011 produced a paltry $180,000,000. This is less than $1 
per acre of revenue to the Federal Treasury--when potentially these 
forests across America could produce thousands of dollars per acre for 
taxpayers.
    Last year the Forest Service budget was $2.3 billion dollars while 
it cut a measly 2 billion BF of timber. Twenty years ago the Forest 
Service budget was roughly half of last year's and its' timber sale 
program produced 14 billion BF of timber.
    This 20 year collapse is depriving Congress of the revenues needed 
to operate and manage the National Forest system. Moreover, it deprives 
local forest communities of the best source of funds to develop vibrant 
economic opportunities or at least it deprives Congress of the revenues 
needed to fund the SRS until the day comes when we once again have 
active National Forest Management modeled after the successful program 
which our state operates. It is obvious and it is a national disgrace!
    I am not proposing that we harvest the equivalent amounts but were 
the national forests managed in the same manner as we do with the state 
forests, the yield would potentially be even greater since the state is 
so much more efficient than the Forest Service.
    Forest harvests by the Department of Natural Resources under the 
direction of the Board of Natural Resources comply with the the same 
environmental laws under which the federal forests operate. The 
Department is signatory to a 70 year all species Habitat Conservation 
Plan with the federal agencies providing for ``incidental take.'' The 
resource is managed with best practices again with the goal of meeting 
their fiduciary responsibilities while maintaining a sustainable 
harvest yield. In some cases, as now with the Marbled Murrelet, the DNR 
has stood beside the federal agencies in litigation. We appreciate this 
partnership and fully expect it to continue well in to the future.
    In addition to the harvest responsibility, the DNR also is 
cognizant of their obligation to replace what has been harvested. They 
have thus implemented an aggressive replanting scheme which insures 
further that the sustainable harvest goals that have been established 
will continue well in to the future. We continue to think of our timber 
as a renewable cash crop.
    The issue of timber harvests cannot be considered without speaking 
about old growth timber. The once thought threat of harvest of old 
growth has long since been virtually forgotten for several reasons. 
First, no one wants to go through the ensuing inevitable litigation 
that would occur if harvesting old growth was even considered. Second, 
there are few mills in the Northwest that could even cut trees of that 
size; most have a 24" to 32" maximum diameter size limitation. Third, 
there is an ample supply of timber in the 40 to 60 year old range that 
is readily available for harvest which provides the mills that are left 
with just the right size of logs. In short, there is really no desire 
to harvest old growth as was once the case. The DNR uses a definition 
of ``very large diameter (60-90 inches or larger), structurally unique 
trees'' and uses that to provide for retention to meet the requirements 
of the Habitat Conservation Plan.
    While definitions of what constitutes old growth vary greatly, 
historically many have believed that a good mark was 250 years old. 
Regardless of the age, the fact is that the lack of active management 
has undisputedly led to a mono-culture forest structure and we are not 
replicating the historic multi-culture forests of cedar, Sitka spruce 
and other varieties which make for a healthy, vibrant forest. We're not 
doing any management of this kind on federal lands and they are not 
only a fire hazard, but a national embarrassment.
    Those of us who are sensitive to the environmental concerns of 
harvesting timber from the federal lands should know that timber 
producers share this ethic. I live where I live because of my love for 
the out of doors and trees in general.
    Environmentally speaking, trees reach a peak of carbon 
sequestration at an age of approximately 60-80 years. This is 
especially important with the emphasis on global warming and 
CO<INF>2</INF> emissions since trees are a major absorptive medium for 
carbon sequestration. Younger, healthier forests will provide us with 
more CO<INF>2</INF> sequestration than older, mature forests. We need 
to strive to make our forests healthier with a health benefit to all.
    Until the last few years, it is my understanding that the Forest 
Service has used roughly one-half of its' budget for fire suppression. 
While the fire suppression was removed from the Forest Service budget 
in the FLAME Act, it was subsequently restored as part of the Forest 
Service budget during the Budget Control Act. Fire suppression was 
allocated $1.9 billion in the budget and then received another $400 
million from other programs.
    The DNR also budgets fire suppression and this is one area that is 
funded by the state general fund. In 2011, $22 million was allocated in 
this area. Just one 18 acre fire on the Gifford Pinchot Forest last 
year exceeded $10 million in suppression costs which was mainly 
monitoring to make sure the fire didn't spread too far. There is a 
totally different philosophy between the two when it comes to this 
subject. The DNR, again in its' fiduciary role, uses what I would call 
active suppression to eliminate the fire. The Forest Service uses a 
``let it burn'' philosophy. It is particularly bothersome that the DNR 
seems to spend less under their philosophy than does the Forest 
Service.
    The administration of the trusts under the Washington Board of 
Natural Resources has proven to be an effective business model. Through 
this model, between 75% and 79% of the total funds generated are 
returned to the various trusts; the balance being used for the 
administration of the program. With budgets being what they are in the 
current economic climate, this revenue has been extremely important to 
those entities who receive money from this source. The potential to use 
this model on the federal forest landscape is, I believe, very real and 
would make the forests financially viable for future generations while 
providing for multiple uses as envisioned by President Roosevelt. And 
while many of those uses have changed as our technology and leisure 
time activities have evolved, the desire to harvest our timber crop is 
just as vibrant today.
    A new model could provide a reliable revenue source to various 
entities which now receive federal funds in the form of Secure Rural 
Schools payments. Finally, let me restate my main point which is that 
following the state model would cut administrative costs, yield more 
timber and provide badly needed additional revenue to the federal 
budget at a time we need it the most.
    Thank you for this opportunity to speak today.
                                 ______
                                 
    Mr. Bishop. Thank you, Commissioner.
    Mr. Jensen.

                 STATEMENT OF MATTHEW JENSEN, 
                    AMERICAN LOGGERS COUNCIL

    Mr. Jensen. Chairman Bishop and distinguished members of 
the Subcommittee, my name is Matt Jensen. I am a third-
generation logger who has worked in the forest industry and 
been self-employed for the past 26 years. To support and grow 
our small family business, I have been educated and trained on 
sustainable forestry practices, incorporating guidelines and 
Wisconsin's best management practices. I am a Wisconsin-
certified master logger and appear before you today 
representing Whitetail Logging, the name of my company.
    Whitetail Logging is a full-service management business 
located in Crandon, Wisconsin. Between my father, Pete, and I 
we have over 70 years experience in forestry and the logging 
business. I also appear today on behalf of the American Loggers 
Council, a national organization representing professional 
timber harvesters in 30 States across the U.S. I am pleased to 
have the opportunity to address the Subcommittee on differences 
and inefficiencies and the scope that exists between county, 
State, and Federal timber programs in Wisconsin, particularly 
as they pertain to contractual and on-the-ground compliance. 
And how those differences impact my business and the businesses 
the American Loggers Council represents across the U.S.
    I would like to share an excerpt from the Wisconsin 
Department of Natural Resources Timber Sale Handbook. It says, 
``Timber sales often involve large sums of public money, as 
well as the ethics of good forest management. Those who are 
delegated authority to establish, conduct, and approve timber 
sales have a legal and moral responsibility to the public to 
obtain maximum financial return for the forest land, and to 
establish the best forest practices possible.''
    Another excerpt, ``Money generated from timber sales does 
not remain with State forests, but is put into a general 
forestry account for the State of Wisconsin. This account 
supports forest management activities such as fire control, 
nursery operations, forest initiatives, and many others.'' In 
2012, Wisconsin State Forest generated over $6 million, just to 
support these activities.
    The Wisconsin County Forest Program, which is under the 
guidance of the State of Wisconsin, is unique to the Nation; 29 
counties in Wisconsin have nearly 2.4 million acres of public 
forest. These county forest lands generated over $37 million in 
revenue through sustainable forest management practice in 2012. 
This revenue directly offsets local tax levies, enabling 
counties to provide essential services.
    In comparison, in 2010, during a visit to Washington, D.C., 
the American Loggers Council's representatives met with the 
U.S. Forest Service Chief Tidwell in his office. We were told 
by the Chief that the Forest Service is not in the business to 
make money. I completely understand the philosophy behind this 
statement, the U.S. Forest Service's task under the Multiple 
Use Sustainable Yield Act is to provide goods and services 
benefitting the public at the possible expense of generating a 
profit. However, what I fail to understand is the apparent lack 
of realization regarding a generation of revenue for 
reinvestment in the forest, ensuring the forest itself does not 
become another economic burden on our economy.
    When comparing the statements from the DNR Timber Sale 
Handbook to operating policies of the Federal timber sale 
program, it is apparent Wisconsin counties and the State of 
Wisconsin timber programs recognize the economic importance of 
a viable, sustainable timber program, whereas the U.S. Forest 
Service displays a lack of concern regarding the provision of a 
financial return. Wisconsin's Chequamegon-Nicolet National 
Forest harvests less than 50 percent of its allowable sale 
quantity identified in its management plan.
    The table attached in my written testimony listed as 
Exhibit B compares timber sales across the eight-county region 
in Wisconsin. While the counties manage 669,000 acres compared 
to the Chequamegon-Nicolet's 1,530,000 acres, the 9-year annual 
return was $12.01 per acre on the county and State forests, 
versus $3.62 per acre on the Federal forests.
    During the past decade, Wisconsin businesses that operate 
right within the borders of the Chequamegon-Nicolet National 
Forest have been forced to import logs and material, raw 
material from Canada, to meet demands while harvests decline in 
the Chequamegon-Nicolet. This example fully illustrates the 
Federal Government's failure to meet the agreements of local 
governments.
    Of the 193 million acres across the country in the National 
Forest system, 23 percent of the National Forest lands are open 
to active management and are continuously litigated under a 
very high level of scrutiny from environmental advocacy groups. 
Timber harvests from Federal lands have declined more than 80 
percent in the last 2 decades.
    Directly related to the lack of timber management is the 
rising cost of fire suppression. Currently, the U.S. Forest 
Service spends $2 billion annually on wildfire control, which 
is over 50 percent of the Forest Service budget.
    And I believe my time is up. Thank you.
    [The prepared statement of Mr. Jensen follows:]

 Statement of Matthew Jensen on behalf of the American Loggers Council

    Chairman Bishop and distinguished Members of the Subcommittee on 
Public Lands and Environmental Regulation, my name is Matt Jensen. I am 
a third generation logger who has worked in forest industry for the 
past 26 years. To support and grow our small family business I have 
been educated and trained on sustainable forestry practices 
incorporating guidelines of Wisconsin's Best Management Practices. I am 
a Wisconsin Certified Master Logger and appear before you today 
representing Whitetail Logging. Whitetail Logging is a full service 
forest management business, located in Crandon, Wisconsin. Between my 
father Pete and I, we have over 70 years experience in the forestry and 
logging business.
    I also appear today on behalf of the American Loggers Council, a 
national organization representing professional timber harvesters in 30 
States across the U.S. I am pleased to have the opportunity to address 
this subcommittee on the differences in efficiencies and scope that 
exist between County, State and Federal timber sale programs in 
Wisconsin, particularly as they pertain to contractual and on-the-
ground compliance and how those differences impact my business and the 
businesses the American Loggers Council represents across the U.S..
    I would like to share with you an excerpt taken directly from the 
Wisconsin Department of Natural Resources Timber Sale Handbook:
        ``Timber sales often involve large sums of public money as well 
        as the ethics of good forest management. Those who are 
        delegated authority to establish, conduct and approve timber 
        sales have a legal and moral responsibility to the public to 
        obtain maximum financial return from forest land and to 
        establish the best forest practices possible.''

        And taken from the website of the Wisconsin DNR regarding the 
        timber sale program on state forests:

        ``Money generated from timber sales does not remain with the 
        state forests, but is put into a general forestry account for 
        the State of Wisconsin. This account supports forest management 
        activities such as fire control, nursery operations, forest 
        health initiatives, and many others.'' In 2012 Wisconsin's 
        State Forests (nearly 527,000 acres) generated over $6 million 
        to support those activities.
    Wisconsin's County Forest Program is ``Unique to the Nation''. 
Twenty-nine counties in Wisconsin have nearly 2.4 million acres of 
public forests enrolled under Wisconsin's County Forest Law (State 
Statues Sec. 28.10 and 28.11). These county forest lands generated over 
$37 million in revenue through sustainable forest management practices 
in 2012. This revenue serves to directly offset local tax levies 
enabling counties to provide essential services.
    In comparison, during a 2010 visit to Washington D.C., American 
Loggers Council representatives met with U.S. Forest Service Chief 
Tidwell in his office. We were told by the Chief ``the Forest Service 
is not in the business to make money.'' I completely understand the 
philosophy behind that statement; the U.S. Forest Service is tasked 
under the Multiple Use Sustained Yield Act to provide goods and 
services benefiting the public at the possible expense of generating a 
profit. However, what I fail to understand is the apparent lack of 
realization regarding the generation of revenue for reinvestment in the 
forest, ensuring the forest itself does not become another economic 
burden to our economy.
    When comparing the aforementioned broad statements from WDNR's 
Timber Sale Handbook to operating policies of the Federal Timber Sale 
program, it is apparent Wisconsin's Counties and the State of Wisconsin 
recognize the economic importance of a viable, sustainable timber sale 
program whereas the USFS, as an arm of our federal government, displays 
a lack of concern regarding the provision of a financial return to 
ensure sustainable management of the public's forests. Wisconsin's 
Chequamegon-Nicolet National Forest (CNNF) harvests less than 50% of 
the Allowable Sale Quantity (ASQ) identified in its approved management 
plan.
    The table attached in my written testimony, listed as ``Exhibit B'' 
compares the timber sales across the eight county region in Wisconsin 
to the timber sales generated off of the Chequamegon-Nicolet National 
Forest. While the counties manage a total of 669 thousand acres 
compared to the Chequagemon-Nicolet's one million five hundred and 
thirty thousand acres, the counties managed to bring in a nine year 
annual return per acre of $12.01 while the CNNF generated a nine year 
average of $3.62 per acre.
    During the past decade northern Wisconsin businesses, such as, 
Nicolet Hardwoods, Action Flooring, and North Country Lumber, all 
located within the borders of CNNF, have been forced to import hardwood 
logs from Canada to meet market demands while harvests decline on CNNF. 
This example fully illustrates the federal government's failure to meet 
original agreements with local governments to provide a steady, 
reliable source of raw material from our national forests while 
protecting and ensuring the sustainability of those forests through 
proper management.
    I need markets to drive competition for the goods and services my 
company provides. Without certainty the U.S. Forest Service can provide 
the amount of raw material identified as the ASQ in the approved 
management plan for the CNNF, investment in new infrastructure and 
milling capacity is diminished. We need a vibrant federal timber sale 
program to encourage investment in those businesses and communities 
that are dependent on national forest lands as a source of supply.
    To be a profitable business owner it is necessary for to generate a 
reasonable rate of return on investment. County and State sales 
offering a good mix of high quality saw logs along with a pulpwood 
component, thus meeting existing market demands, help make that 
possible. The harvesting of those products on State and County lands in 
Wisconsin not only improves forest ecosystem health, but also allows me 
to keep my production efficient, and products produced at a financially 
sustainable level providing jobs and economic stability to my area.
    As an example of inefficiency I would like to show you samples of 
timber sale contracts from the WI County, WI State and USFS Federal 
Timber Sale programs. The size of contracts on federal timber sales 
alone can act as a deterrent to for receiving competitive bids on a 
timber sale. Oversight on the federal timber sale program has become an 
unjustifiable burden where it takes this type of documentation to award 
a federal timber sale versus the state contracts and the county 
contracts.
    Of the 193 million acres across the country in the National Forest 
System, only 46 million acres are designated as having a ``timber 
objective.'' The 23% of the NFS lands open to active management have 
been subject to a continuous and very high level of scrutiny by 
environmental advocacy groups. Timber harvests from federal lands have 
declined by more than 80% over the last two decades. These declines 
have devastated rural communities where sawmills and paper mills 
provided some of the only stable, year-round employment. Many mills, 
large and small, have been forced to close their doors resulting in the 
loss of thousands of family jobs, coupled with tens of thousands of 
indirect jobs lost, including an estimated 30% reduction in logging 
businesses. Directly related to the lack of timber management is the 
rising cost of fire suppression. Currently the USFS spends over $2 
billion annually on wildfire control which is over 50% of the Forest 
Service budget.
    Regulatory burden placed on the USFS from environmental laws have 
resulted in passive management on a grand scale, which has numerous 
negative impacts on forests and local economies.
    A trust management approach on USFS lands designated for timber 
production would focus on the small portion of the National Forest 
System which, according to approved management plans, should be 
producing timber. Agency resources, currently wasted by over-analyzing 
even modest timber sales or hazardous fuels projects, could be freed up 
to offer economically viable timber sales or fund restoration work if 
lands were managed on a trust basis. This would more closely mirror 
models used in both Wisconsin's State and County forest management 
programs. On federal forest acres designated for timber production, 
concrete management requirements could help spur investment in wood 
using industries and land management capacity. Existing mills would 
receive some assurance that the National Forests they depend on will 
produce reliable supplies of timber into the future. This could in turn 
stimulate economic development beyond a seasonal fire suppression 
industry which currently appears to overshadow all other investments in 
the forest products industry.
    The American public would no longer be forced to bankroll a 
litigation driven analysis machine, but instead could spend the few 
federal dollars available to actually improve the condition of the 
National Forest System. The current system is unsustainable socially, 
economically, and ecologically. Piecemeal reforms hold little promise 
for rural communities that are dependent on federal timber supply.
    As a final note, there was a bill introduced last year in the House 
and Senate entitled the Silviculture Regulatory Consistency Act, H.R. 
2541/S. 1369. The bill seeks to codify a 35 year exemption for 
silvicultural operations from the National Pollution Discharge 
Elimination System (NPDES) permitting process allowed by the EPA, 
following a Ninth Circuit Court decision which denied those exemptions. 
I can think of no other regulatory burden that would have a greater 
negative impact on our industry if the Ninth Circuit's decision is left 
to stand. The delays in obtaining those permits alone would cost the 
industry millions of dollars in lost production. Our industry has 
proven that with the use of both mandatory and voluntary Best 
Management Practices established by the States and approved by the EPA, 
water quality issues from Silvicultural operations are negligible and 
implementation of the permitting process would have no net benefit to 
the environment.
    With poor market conditions and loss of infrastructure currently 
facing our industry, an attempt to further regulate and add additional 
costs will certainly have negative impacts on our forest operations. We 
urge members of Congress to reintroduce and pass the Silviculture 
Regulatory Consistency Act.
    Again, thank you for allowing me to provide testimony and comments 
as you consider efficiencies in the Federal Timber Sale Program. I 
would be happy to try and answer any questions you might have.
                                 ______
                                 

                             Exhibit ``A''

   A Report Generated by the Washington Contract Loggers Association 
  Comparing the Federal Timber Sale Program to the State Timber Sale 
                      Program in Washington State

    The Washington State Department of Natural Resources manages 
approximately 2.1 million acres of forested state trust lands. These 
DNR managed lands raise millions of dollars each year to fund the 
construction of public schools, colleges, universities, and other 
government institutions, as well as county and state services. Trust 
forests are managed sustainably and yield high per-board-foot prices.
    From 2000 to 2010 the DNR sold an average of 566.1 million board 
feet of timber per year. This produced average annual revenue of $168.6 
million. The average selling price per thousand board feet was $308.
    In contrast, in 2010, 129.2 million board feet was sold from the 
9.3 million acres of USFS land in Washington. This generated revenue of 
$650,947 or about $5 per thousand board feet.
    When it comes to salvage operations, Washington State DNR reacts 
quickly in order to pursue recovery of value, ensure resource 
protection and re-establish a healthy working forest.
    In September and October of 2012, the Table Mountain Complex fire 
burned thousands of acres in central Washington. Once it was safe to 
enter the area, DNR had staff out on the ground planning timber sales 
to salvage timber burned during the fire. In December 2012, the DNR put 
up the first of two sales that will remove fire damaged timber in this 
area, and 8.305 million board feet of timber was sold. The second 
auction is planned for the spring of 2013, and will include any 
salvageable material that is not removed as part of the December sale. 
It is anticipated that all material will be removed no later than July 
31, 2013.
    As of the fall of 2012, the USFS was still studying if any salvage 
timber sales would be put in the fire area.
    In December of 2007, hurricane force winds struck the coast of 
Washington State and significantly damaged forest lands. Immediately 
after the storm, DNR began assessing damage from the wind storm on 
state trust lands. At the time, DNR estimated blow-down timber from 
state trust lands to total approximately 100 million board feet. By 
June of 2009, DNR had sold approximately 113 million board feet of 
blow-down timber. DNR knew that the timber had to be sold quickly to 
maintain marketability and maximize value.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9812.001
                                 
                                 .eps__
                                 

                             Exhibit ``C''

Mr. Daniel J. Dructor February 21, 2013
Executive Vice President
American Loggers Council
P.O. Box 966
Hemphill, TX 75948

Dear Danny,

    Please accept these comments and the accompanying information for 
your use, should it be helpful, in preparing for testimony to our U.S. 
Congress on the issue of the effectiveness of state-managed lands vs. 
federal (Forest Service) land from a business perspective.
    First I would like to offer an overall view of the forest land 
acres of Idaho, who owns them and comparative timber harvest 
information.
    Forests cover 40.5% of Idaho. Most forests are timberlands. Of 
Idaho's timberlands, roughly 4.3% is in private ownership, the State 
manages 2.6%, the Bureau of Land Management manages 1.0% and the 
federal National Forest system manages 22.7%.
    Approximately 39 percent of Idaho's land (20.4 million acres) is 
within the U.S. National Forest System with more than three-fourths of 
Idaho's timber resources on those lands. That does not include the 4 
million acres of federal forest lands in the National Wilderness 
Preservation System.
    Between 1947 and 1990 federal lands provided 43 percent of the 
timber harvested in the state. In 1990 federal harvests began a steep 
decline as a result of several policies, and since 1990 have provided 
20 percent of the timber harvest. In the past ten years, federal lands 
have provided just 10 percent of the harvest.
    It is factually clear that management of timber lands by both 
private and state entities is far more effective from both a land 
management view and a revenue-generating view.
    The Idaho Department of Lands is charged with management of our 
state lands and has a long track record of being effective, producing 
revenue for the state endowments (which by our State Constitution is 
where proceeds of activities on state lands must go and the biggest of 
which helps to fund our K-12 public schools) all while managing the 
state timberlands in a proven sustainable manner.
    The Associated Logging Contractors of Idaho represents close to 400 
businesses that are logging and log hauling contractors. These 
businesses are the primary professionals who implement harvest 
operations on Idaho's timberlands across all ownerships.
    Our members have example after example of working with the State of 
Idaho and the U.S. Forest Service and are able to do side by side 
comparisons of business practices of the two entities. Time after time, 
the State of Idaho's Dept. of Lands is much more nimble in its lawful 
execution of contracts and harvest activities than is the U.S. Forest 
Service. As an example, the state is able to provide on the ground 
decisions, within the state's laws, while the U.S. Forest Service has 
no such flexibility often needing to go to upper level management and 
taking weeks to come to answers while limited working seasons 
evaporate. The state is also able to react quicker to natural 
disasters, such as fire, and economic changes in the wood products 
markets than is the U.S. Forest Service.
    While we value our working relationship with the U.S. Forest 
Service in Idaho, it is extremely frustrating to watch them hindered by 
what seem to be bureaucratic obstacles that make it difficult to 
operate in a fiscally sound manner, let alone for the benefit of the 
long term health of our forests.
    Thank you very much for this opportunity to provide our 
observations in this matter. Please feel free to call upon us if we can 
provide further information.

Sincerely,

Shawn Keough
Executive Director
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] 79812.002
                                 
    .epsAs Figure 5 illustrates, between 1947 and 1990 federal lands 
provided 43 percent of the timber harvested in the state. In 1990 
federal harvests began a steep decline as a result of several policies, 
and since 1990 have provided 20 percent of the timber harvest. In the 
past ten years, federal lands have provided just 10 percent of the 
harvest. Approximately 39 percent of Idaho's land (20.4 million acres) 
is within the U.S. National Forest System--Oregon ranks a distant 
second at 25 percent. More than three-fourths of Idaho's timber 
resources are on federal lands, a total that does not include 4 million 
acres of federal forest lands in the National Wilderness Preservation 
System.
    Source: Idaho Forest, Wildlife and Range Experiment Station, 
Moscow, ID--Station Bulleting 100, January 2013.
                                 ______
                                 
    Mr. Bishop. Thank you very much, and I appreciate that. All 
right. We will now turn to the Committee for questions for any 
of our four guests.
    We appreciate, by the way, you coming great distances to be 
here with us today. I will turn, first of all, to the 
representative from Wyoming. If you have questions for any of 
these witnesses, I will go last in these rounds. I am not going 
to be as generous on your 5 minutes as I was with theirs, so--
your five is not seven.
    [Laughter.]
    Mr. Bishop. So if you have questions, please.
    Ms. Lummis. Thank you, Mr. Chairman. I appreciate that, and 
I will get right into it. Mr. Jensen--first of all, thank you 
all for your testimony.
    Mr. Jensen, I would like to start with a question of you. 
Your testimony indicated that environmental litigation is a 
barrier to effective active management in national forests. And 
I would note that we find that to be true in Wyoming, as well. 
Our State forester says that the Forest Service is the agency 
most commonly litigated on procedural matters under NEPA, as 
opposed to substantive matters on forest management. It is the 
procedural bog-down.
    Could you elaborate a little about how litigation 
uncertainty impairs both the effective management, the 
substantive management, and the vital timber industry that we 
need to support that effective management?
    Mr. Jensen. OK, I will try. Just to give you a little bit 
of a visual on regulation, this is a Federal timber sale 
contract that I currently have.
    Ms. Lummis. One contract.
    Mr. Jensen. One, and it is not a very big timber sale, not 
even for Wisconsin.
    Ms. Lummis. How many pages is that?
    Mr. Jensen. It has got to be 200. It is a lot. I haven't 
counted. This is a State timber sale contract.
    Ms. Lummis. How many pages is that?
    Mr. Jensen. I could probably count them in about 10 
seconds. Ten, maybe.
    Ms. Lummis. Thank you. And are those roughly comparable 
acreages, would you say?
    Mr. Jensen. The Federal timber sale is a little bit larger 
acreage. Where the environmental things come into play, 
especially on the Federal level, in this particular Federal 
timber sale that I have is a northern hardwood stand that has 
an invasive species. That timber sale has turned into a winter-
only or frozen-ground timber sale. You could drive a car 
anywhere, it is gravel roads.
    Being a third-generation logger, my father logged that land 
in the summertime when I was a child. I was with him, I 
remember it, which was kind of a unique example that I actually 
remembered it. But there are so many regulations on invasive 
species, the time of year. And there were three different color 
markings on the timber. They were marked over because it was 
litigated and then it was passed, it was litigated again. There 
are areas blacked out that were areas that you couldn't 
harvest. It is northern hardwoods, and it is very common. There 
are no water quality issues. The only thing is the invasive 
species.
    Ms. Lummis. Wow.
    Mr. Jensen. That is just kind of a little bit of an example 
of how it can really get quite far-fetched on a fairly average 
timber sale.
    Ms. Lummis. And would you say that is the rule or the 
exception in what is going on in forests in Wisconsin?
    Mr. Jensen. Well, it is becoming more of the rule. What I 
failed to say--or I think what the Forest Service fails to see 
is that this particular timber sale is a very common, 
straightforward timber sale. And when they require that it is 
done in the wintertime, the marketability of that diminishes in 
half.
    Ms. Lummis. Why?
    Mr. Jensen. Because of the time of year. In Wisconsin we 
have some fairly harsh winters, just like a lot of folks in the 
northern half of the United States. So summertime logging and 
operations are much more attractive than wintertime, because we 
can harvest timber anywhere. In the wintertime, because it is 
snow-covered, it is frozen, would limit the harvest.
    Ms. Lummis. But your purchasers would have to let that wood 
cure for a while, anyway. So why does time of year matter?
    Mr. Jensen. It is the seasonal restrictions for on-the-
ground operating. It has nothing to do with the timber.
    Ms. Lummis. OK.
    Mr. Jensen. Itself.
    Ms. Lummis. Thank you. The gentleman from Washington, I 
have a question. You mentioned that you have some 20 acres of 
timber land that you own.
    Mr. Grose. Yes, ma'am.
    Ms. Lummis. And then you also, of course, work the State 
portion. Could you describe some of the differences that would 
occur in the way you would handle your own land, compared to 
State land and Federal land in Washington?
    Mr. Grose. Well, my property is a 40-acre piece, and like I 
said, in the last 10 years I have taken 3 different harvests 
off of that, different types of harvest.
    Ms. Lummis. Do you rotate? Is it a rotational----
    Mr. Grose. It is not a rotation, per se, but yes, it is, 
because in 1981 I planted 2,500 trees. And I have had to go 
through and thin those trees. And that was one harvest. 
Actually lost money on that. But now those trees are 30 years 
old. In another 10 years I will be able to go through and 
harvest some more of those trees. I have about 300 trees per 
acre now.
    They didn't do the whole property; there is still a lot of 
the property that is an older stand. Because I only did 5 acres 
back then. So I have this kind of rotation, but it is not a 
rotation of crops, as we see corn being planted every year. It 
is a rotation that is a 30-year rotation, instead of a 1-year, 
2-year, or 10-year rotation.
    Ms. Lummis. Thank you, and I will follow up more with you. 
But the----
    Mr. Bishop. Thank you.
    Ms. Lummis [continuing]. Chairman is gaveling me down. 
Thanks, Mr. Chairman.
    Mr. Bishop. Mr. Grijalva, do you have questions?
    Mr. Grijalva. Thank you, Mr. Chairman. Mr. Jensen, the 
Board of Commissioners of Public Lands of Wisconsin says that 
forest fragmentation is the biggest challenge facing the State. 
Are private forest lands being sold to develop for purposes 
other than the timber harvesting that we are talking about 
today, and that you mentioned?
    Mr. Jensen. I----
    Mr. Grijalva. And is that fragmentation issue as big as the 
Land Commission says it is?
    Mr. Jensen. Well, I think there is an issue with 
fragmentation, because there is such a large amount of acreage 
of private lands in our State. But if I am understanding your 
question about the other objectives, you mean recreation, that 
sort of thing? Is that what you are talking about?
    Mr. Grijalva. No, the question is, how big of an issue is 
this fragmentation, private land being sold to developers for 
other purposes, i.e., housing, commercial, affecting the topic 
that you brought up, which is the harvesting of timber as a 
revenue source?
    Mr. Jensen. Well, I think there is some issue with that. I 
agree that there is a problem with that, because of the large 
amount of private land in our State. We have a lot of 
waterfront, lakes, rivers, that sort of thing, which makes for 
attractive pieces of property to own. So that is----
    Mr. Grijalva. OK.
    Mr. Jensen [continuing]. An issue.
    Mr. Grijalva. Again, Mr. Jensen, aside from just increasing 
the amount of logging, what other ideas do you have that would 
generate additional revenue and reinvest those revenues in the 
National Forest in Wisconsin?
    Mr. Jensen. Well, I think solely, if the National Forest 
just met their ASQ, there would be monies generated like the 
States and counties do, more monies generated, and that would 
enhance your recreation, your trails, your campgrounds, your 
parks, which we have, which right now, the----
    Mr. Grijalva. OK.
    Mr. Jensen. The lack of that management----
    Mr. Grijalva. Yes, one other question, because you advocate 
the trust model in your testimony. Let me just ask you some 
simple questions for my own edification.
    Who would choose the lands that go into the trust?
    How would recreation, hunting, fishing, and other 
recreational interests be represented in that process?
    What would ensure that timber--your point--timber output 
was prioritized primarily on those lands?
    And would all environmental laws still apply, if we went 
into that trust model?
    Mr. Jensen. Well, I believe all the environmental laws 
would still apply. What was the first part of your question? I 
am sorry.
    Mr. Grijalva. Who would choose? I mean, what goes into the 
trust?
    Mr. Jensen. Well, I guess I don't have a direct answer for 
that. I think that the collaboration with State--with the 
Wisconsin DNR State forest folks with the Federal would 
probably be the best way to do it, in my mind, because----
    Mr. Grijalva. Would revenue return be a primary 
consideration if you were looking at which lands would go into 
the trust?
    Mr. Jensen. No, I think that, of course, revenue has a lot 
to do with it. I mean it generates a lot of the goods and 
services that we all want. But I believe that the ultimate 
health of the forest is what is going to drive this whole 
thing. And with the lack of management, we are not getting 
there.
    Mr. Grijalva. OK, thank you.
    Mr. Jensen. Thank you.
    Mr. Grijalva. A couple more questions. Commissioner, if you 
don't mind, your testimony compares the timber output and 
revenue levels of Washington's DNR and the Forest Service.
    Mr. Grose. Yes, sir.
    Mr. Grijalva. Do you have a rough idea of what 
Washington's--that Department spent in 2011 to manage 2.1 
million acres that were under----
    Mr. Grose. Yes, it is roughly 21 percent from the county's 
part and 25 percent on the other trusts. And that is the model.
    Mr. Grijalva. Yes, but what is the amount?
    Mr. Grose. Well, $220 million--I didn't do the numbers, but 
$220 million divided by 21 percent of that, whatever that 
amount is.
    Mr. Grijalva. Sixty?
    Mr. Grose. Well, it is four-something. Forty million 
dollars? Is that right? I don't know. I don't have----
    Mr. Grijalva. Sixty million dollars.
    Mr. Grose. I don't have a calculator, anyway.
    Mr. Grijalva. Well, let's not quibble over $20 million.
    Mr. Grose. It is 21 percent--20 percent----
    Mr. Grijalva. Obviously, Congress isn't quibbling over----
    Mr. Grose [continuing]. Twenty-one percent of $220 million, 
whatever that is.
    Mr. Grijalva. Well, in comparison, the Forest Service in 
the State manages nearly twice the number of acres and has 
allocated in its budget $21 million. So that's one-third of the 
funding for twice the acreage. Does that number make sense to 
you?
    Mr. Grose. Well, it is actually almost four times the 
acreage that the State has. The Federal lands are 9.3 million 
acres and the State land is 2.1 million acres.
    Mr. Grijalva. And State lands are $60 million to manage and 
the Federal lands are $21 million, with twice the number of 
acres?
    Mr. Grose. Those aren't my numbers. I----
    Mr. Grijalva. Well, OK. All right.
    Mr. Bishop. Thank you. There will be another round, yes. 
Mr. Tipton, do you have questions?
    Mr. Tipton. Thank you, Mr. Chairman, for holding this 
hearing. And I would like to start with Mr. Jensen.
    In your testimony, you mention that the current attitude of 
the Federal Forest Service is not to be in the business of 
making money, but rather to be able to comply with Multiple Use 
and Sustained Yield Act. You further note that some of the 
generation of revenue out of the forest can be better used to 
be able to reinvest in the health of our forests, and to better 
meet those goals for Multiple Use and the Sustained Yield Act.
    I believe those points are really well taken. Could you 
maybe expand just a little bit on what type of actions you 
could take in Wisconsin to be able to meet some of those goals?
    Mr. Jensen. Well, number one--I mentioned it before--I 
believe that if the Forest Service was required to just meet 
their ASQ, it would take care of a lot of issues.
    There are so many examples locally of just inefficiencies 
with the forest that resides in my State, I mean, I could go on 
with several stories. I mean there has been some stories, for 
example----
    Mr. Tipton. Do you have issues in your State as we do in 
the State of Colorado, in regards to infected trees?
    Mr. Jensen. I think we have very common issues, from an 
efficiency standpoint, all across the country. That is why they 
thought maybe it would be unique to have somebody from 
Wisconsin, rather than the Western U.S., because we have the 
same common problem, just, you know----
    Mr. Tipton. So it is endemic across our country. Mr. 
Jensen, if States and counties had the authority to be able to 
determine forest conditions on forest service lands that are 
hazardous, and to be able to implement some hazardous fuel 
reduction projects to be able to address those challenges, do 
you think that they would do a better job than the Forest 
Service?
    Mr. Jensen. I do. And the biggest reason is because they 
would implement the solution much faster. We have had some wind 
events, tornadoes. Several years ago, 7 or 8 years ago, we had 
a tornado that went through south of where I live. It crossed 
State, county, Indian Reservation, and Federal lands. And all 
the other entities implemented timber sales, cleaned up 
immediately. The Forest Service was last. I will give them 
credit, they did do a much quicker job than traditionally.
    We had a tornado event in the northwest part of our State, 
devastated 100-some-thousand acres. There was timber that was 
laying on the ground over a year. It is useless now.
    Mr. Tipton. So we really need to be able to create an 
opportunity for our State and our county governments to be able 
to get in and address these issues.
    Mr. Jensen. Yes, I believe----
    Mr. Tipton. Great.
    Mr. Jensen [continuing]. The collaboration between States 
and Federal would go a long way because one size doesn't fit 
all.
    Mr. Tipton. Thank you. Governor, appreciated your comments, 
and I believe I quoted you directly here, where you made the 
comment that the system is broken. And in your testimony you 
mention that the current Federal land management processes and 
the activities of some environmental groups are largely to 
blame for the lack of responsible management on Federal lands.
    What Federal processes are slowing things down? And how are 
some of the actions of environmental groups exacerbating these 
problems?
    Governor Otter. Well, I think we could wrap NEPA around a 
great deal of that. The Forest Practices Act that Idaho came up 
with, in many cases, it is what we use as a guide--it is based 
upon, not as has been suggested so much as the yield of dollars 
off of that management practice, but the health of the forest. 
Because this year, in Idaho, on 1,700,000 acres that we burned, 
which put over 700,000 pounds of carbon in the air--I would 
have had to have 4.6 million cars in Idaho to put that much 
carbon in the air, including 2.5 tons of mercury were put in 
the air, and all that watershed was destroyed, as well. And 
part of the reason for that is because of the overgrowth of the 
forest.
    Mr. Tipton. Right.
    Governor Otter. Where we should have, let's say, on a 
northern slope in Idaho 140 square feet of stumpage per acre, 
in many cases we have 600 square feet of stumpage.
    Mr. Tipton. Right.
    Governor Otter. So that when those catastrophic wildfires 
hit, there is a lot of fuel there. And they calcine the earth. 
They burn the earth very, very deep.
    Mr. Tipton. And we need to be able to address that. You 
know, Mr. Chairman, I think this panel has explained very 
clearly the degree to which States need to be able to take 
effective steps to efficiently respond to their management of 
the forest on Federal lands. We are suffering, really, from 
paralysis by analysis, I think, often times. And this results 
in lost revenues for our counties, for our schools, as well as 
unhealthy forest conditions.
    In Colorado, the Federal forest service lands are 
interspersed with State and private lands, as well. And this 
patchwork of ownership makes it difficult to take a 
comprehensive approach to forest management. While the State is 
responsible for managing these forests, we are introducing some 
legislation, Healthy Forest Management bill and Wildfire Act, 
to be able to address, hopefully, some of the concerns you 
have.
    Thank you, Mr. Chairman, and yield back.
    Mr. Bishop. Mr. DeFazio.
    Mr. DeFazio. Thanks, Mr. Chairman. I am just curious about 
the--I would like to address the question to the Commissioner 
about the DNR and the HCP.
    As I understand the HCP, it is in part predicated upon the 
restrictions on harvest on Federal land. And, therefore, you 
were given license to do things that might have constituted 
take but don't, because of the upstream or the other 
protections on Federal lands.
    If those lands--if their management was changed in these 
proposals we are hearing here, those Federal lands were somehow 
devolved to the State and not--wouldn't that then affect your 
HCP? The HCP was issued with the idea that there were going to 
be certain restrictions on the Federal land. If those 
restrictions go away, wouldn't you have to renegotiate the HCP?
    Mr. Grose. I am not sure I understand the question. And 
from the standpoint of the HCP, the HCP is an agreement between 
the DNR and the Federal agencies. So the HCP is for the State-
owned lands. Now, the Federal----
    Mr. DeFazio. Yes, but as I read it, it is predicated on a 
certain level of management on the adjoining or upstream 
Federal lands.
    Mr. Grose. Mr. DeFazio, I am not familiar with that part of 
that.
    Mr. DeFazio. OK, all right.
    Mr. Grose. So----
    Mr. DeFazio. Well, all right. I think that would be a 
problem. I mean that has been a discussion in Oregon, our 
private lands are managed under State forest practices. And 
endangered species apply, but they are not under the northwest 
forest plan because of the assumptions of what will happen on 
the Federal lands.
    So I am just pointing out that if the management of the 
Federal lands changed, I think that would undercut and maybe 
require renegotiation of your HCP.
    I just don't know about DNR management. I am just curious. 
I am seeing you are getting about an average of 600 million 
board feet off 1.8 million acres of land. But it says you are 
protecting old growth and/or unique structural areas. I mean 
how much of that is old growth or unique structural forest?
    Mr. Grose. I don't know the exact acreage.
    Mr. DeFazio. OK.
    Mr. Grose. I know that the riparian zones are 200 feet from 
streams, and----
    Mr. DeFazio. That would be all class one, two, three, or, 
you know----
    Mr. Grose. It must be, because I just have a little, tiny 
stream going through my place, and I have to go back 200 feet 
from that stream. And it is just a three-foot-wide stream.
    Mr. DeFazio. OK.
    Mr. Grose. So I think there is a movement in the State to 
increase that on the larger streams, but I don't know what that 
amount is right now.
    Mr. DeFazio. Yes. Well, a scientist at OSU has just done 
sort of a definitive recalculation of what length provides 
optimal riparian, other than no harvest at all. And he has come 
up basically with one old-growth tree length or height, which 
would generally be 250, 300 feet, maybe.
    Mr. Grose. Maybe 300 feet, yes.
    Mr. DeFazio. And it is new and a very, very highly regarded 
science.
    So, generally then, on these lands, it is pretty much 
industrial forestry. Is that correct?
    Mr. Grose. Yes, sir.
    Mr. DeFazio. OK. So, I am just curious about that.
    Governor Otter, I am just curious--good to see you again.
    Governor Otter. Thank you.
    Mr. DeFazio. I think your legislature is proposing 
legislation. Who would pick the lands? I am just puzzled. I 
mean, again, this is highly theoretical, since there are 
obviously recreation values, hunting values, there are critical 
watersheds, there are a whole host of things that are protected 
and/or managed by the Forest Service under the multiple use 
concept.
    But then, on the problem side, we also have--I think there 
is a mine somewhere, and I think it might be with the big 
tailings problem in Idaho. What is going to happen with those 
sorts of problem sites? Who is going to decide what you get?
    Mr. Grose. Well, I think the pilot project that would be 
suggested, the collaboration effort between the partners, would 
obviously identify the track of land for the pilot project 
itself. And it would obviously be picked based upon its ability 
to be managed in a multiple-use way. We do that on 1,300,000 
acres of State lands every day. And so we have certain 
conditions and things that can go on and things that can't go 
on.
    Mr. DeFazio. Right. How many acres are you talking about 
here with your proposed----
    Mr. Grose. For the pilot project?
    Mr. DeFazio. Yes.
    Mr. Grose. Well, one of the initial ones was 2.5 million 
acres.
    Mr. DeFazio. Which would be twice the size of your current 
State lands?
    Mr. Grose. Yes.
    Mr. DeFazio. And they would become as State lands and be 
managed as State lands?
    Mr. Grose. No, I think we would still have to, in that 
pilot project, in making out the management plan for that pilot 
project, our partner in that would be the Forest Service.
    Mr. DeFazio. OK. Thank you, Mr. Chairman.
    Mr. Bishop. Mr. Labrador, Ms. Herrera Beutler has a meeting 
with the Speaker shortly. Would you mind yielding to her to go 
forward?
    Ms. Herrera Beutler. Thank you, thank you, and I will make 
this as quick as possible.
    This is mostly for Commissioner Grose. I have two quick 
questions. The first one--and this is to Mr. DeFazio's point 
that management of Federal lands, if we change it, it possibly 
could change the Habitat Conservation Plan between DNR on the 
State lands.
    What I have heard from the panel's testimony is if we don't 
change the way that Federal lands are managed, it is going to 
impact State lands regardless. Could be catastrophic fires that 
endanger species and the health of our forests. So if you 
could, speak a little bit to that.
    And also, there is a switch in tracks a little bit. What 
about the habitat on the State lands, on the DNR lands? How 
does the DNR's timber program affect species, specifically the 
Northern Spotted Owl?
    Mr. Grose. You know, the retained areas that we have 
allowed within the HCP accommodate the Federal agencies and 
their demands for that. We feel that we have complied fully 
with the HCP and have allowed for the incidental rulings that 
have come out.
    So, I guess I am a little bit confused in the questions 
that I have been asked about that, because we have an approved 
plan by the Federal agencies. And when we operate under that 
plan, we have to allow for those different species that are out 
there, from fish to birds to elk, heaven forbid. I have a 
serious elk problem in my county. So we have allowed for all of 
those things within that HCP.
    And I don't see the issue--and a lot of times on the 
Federal lands--of why we can work under the HCP, the same laws 
that they work under, and yet we can harvest a lot more timber. 
It is confusing to me.
    Ms. Herrera Beutler. In a quick follow-up, and then solicit 
the panel's thoughts on that, I had U.S. Forester Tidwell in 
the Interior Appropriations Subcommittee a couple weeks--well, 
I didn't, the Chairman did, but I am a member of the Committee. 
And he was making a request for more equipment and money to 
help fight fires. He was talking about the $2 billion that they 
had to spend and they have to pull it from all these other 
areas to fight these catastrophic fires.
    And I made the point one way, using the quote that Governor 
Otter used quoting GAO, one way in my mind--I think we were 
spending around $300 million on the maintenance side and about 
$2 billion on the fire-fighting side. If we switched those 
numbers--and possibly that money could be self-sustaining from 
harvesting off these forests and keeping them healthy--we may 
be able to put a little bit--to save some money and not do the 
reactionary fire-fighting, and do some management there. And I 
guess I would like this panel's thoughts.
    Governor Otter. Well, if I might respond--and primarily I 
want to focus on the catastrophic wildfires that we have. And 
many times in Idaho--I say, again--1,700,000 acres, $214 
million. My share of that is about $15 million. You know what I 
can do with $15 million in a classroom? Besides the fact that 
we lost a resource.
    Now, that is what we see today, Congresswoman. But what we 
don't see today we will see when the watershed starts. Because 
you burn 1,700,000 acres of watershed and the Halstead, 
Mustang, and Trinity Ridge fires. Trinity Ridge was on the 
Boise reaches. But the Mustang and the Halstead were both on 
the Salmon River reaches. We have spent $1 billion a year 
trying to recover the salmon runs up the Columbia River, clear 
up to Montana.
    And when that runoff starts, we are going to silt those 
spawning beds, because most of those salmon are born in Idaho. 
We are going to silt those in, and we are going to lose an 
awful lot of the success that we have had.
    And so, it is the loss of the watershed. And for years to 
come, you know, how long can we recover that? Because there was 
so much fuel there, it calcined the earth. It burned it very 
deep. We have places in Idaho that, from the 1910 fire, the 
Great Burn, still are not growing anything. Slate Creek, which 
is a contributory to the St. Joe, there still is nothing 
growing up there. It looks like our craters of the moon 
monument in Idaho.
    So, if we add up all of those things that we have done, 
whether it is the loss of the endangered species habitat that 
we have spent $1 billion a year creating, whether it is the 
quality of the water that is now going to be coming down the 
Boise, the Snake, and the Salmon Rivers, and the resulting loss 
of aquatic life as a result of that, when you start adding up 
all those things, we have to go back to the management, and we 
have to go back to healthy forest management.
    Mr. Bishop. Thank you. Mr. Horsford, welcome to the 
Committee. Do you have questions?
    Mr. Horsford. Yes. Thank you. First, thank you, Mr. 
Chairman, for today's hearing. And to our witnesses, we 
appreciate very much you being here today.
    Governor Otter, I would like to first thank you for taking 
the time out of your schedule to be here, and to be back in the 
House, and for giving us your perspective----
    Governor Otter. Thank you.
    Mr. Horsford [continuing]. From a State perspective. And I 
noticed in your testimony that you focused on the economic 
value and potential of our national forests. Idaho has eight 
national forests. I am from Nevada; we have one, the Humboldt-
Toiyabe National Forest.
    Now, the Outdoor Industry Association estimates that 
148,000 jobs in Nevada are directly tied to our outdoor 
recreation, generating $10 billion in State and local revenue. 
And I understand that it is difficult sometimes to measure the 
economic impact, because there are so many different interests, 
particularly around small business. But for a State like 
Nevada, where we have a tourism focus, how do you recommend 
that we accurately measure that impact of our national forest 
lands?
    Governor Otter. Well, in many cases I think we have already 
seen some of the impact because of the cost of our catastrophic 
wildfires, as was suggested by the congresswoman before she 
left. We are spending an awful lot more money fighting forest 
fires than we are on the maintenance.
    I have had meetings in the last month with the back-country 
horsemen, with the folks who can no longer use the trails into 
the wilderness area and into the forest area, because they 
haven't been maintained. And, as a result of that, they see a 
continuing dropping off in people that are coming to recreate, 
to hike, to camp, and to ride horseback into those back country 
areas. I can't give you that figure today, and I apologize for 
that, I should have come prepared for that. But I am not.
    But I can tell you that, to the extent that we spend money 
on fighting a forest fire--which, in some cases, I believe 
could have been avoided--instead of on maintenance, that is 
going to be a continuing problem.
    Mr. Horsford. OK, thank you. Mr. Jensen, your testimony 
emphasized the unique State model in Wisconsin. And I want to 
ask you, what are the lessons that we can apply in our 
situation in Nevada.
    Part of my district, Mr. Chairman, includes rural Nevada. 
And we have an encroachment of Pinyon Pine into what would 
naturally be range lands. And our community, including 
ranchers, sportsmen, Federal agencies, and others are concerned 
with environmental restoration, which many of these 
stakeholders would really like to see a win-win solution to 
this problem.
    In one of my schools, they actually use biofuels to support 
their energy needs. And it is done in partnership with the 
Forest Service. So based on your experience, would you share 
your thoughts on other economic activities like biodiesel as a 
solution?
    Mr. Jensen. In the State of Wisconsin, there are many 
different cogeneration plants using wood waste that are coming 
online, so it is becoming more of an attractive means of using 
raw material and getting rid of wood waste and keeping the fire 
hazard down. We don't have near the fire hazard in Wisconsin 
like they do in the Western States, because we don't have the 
conifer trees. So it is quite a different world.
    But the biomass is becoming a large thing. Wood pellet 
energy for home heating and all the way to industrial heating. 
And also for boiler fuel for manufacturers, large 
manufacturers. Even, like you said, schools. That is a very 
common thing in our State. So if you create that infrastructure 
and create the pathway to get there, that will become more 
attractive and cost effective. But with all the regulations 
involved, we are not at that point. Hopefully that answers your 
question.
    Mr. Horsford. Thank you. Thank you, Mr. Chairman. And I 
believe this is really a bipartisan issue that we could work 
together on. And I look forward to working with you, Mr. 
Chairman, under your leadership on this issue, because I think 
there are things that we can do together.
    If I could just briefly--Chairman Whitman, you touched on 
the needs of the tribal community in this. And I have met with 
the Walker River Paiute tribal leadership, and they were also 
expressing concerns around the very points that you address. So 
I just want to thank you for being here, and make sure that we 
continue to provide your perspective on these very important 
matters.
    Mr. Bishop. Thank you. Appreciate that. Mr. Labrador, you 
are finally up. Sorry.
    Mr. Labrador. No problem. Thank you, Mr. Chairman. I was 
reading an article this morning and it had nothing to do with 
this hearing. It was Secretary of State John Kerry in Berlin, 
and he described a scene when he was 12 years old. He was in 
Germany with his father, who was a diplomat. And he describes 
that when he was about 12, he went on a bike ride, and he 
actually crossed a border and went from West Germany to East 
Germany. And he says, ``I biked through the checkpoint right 
into the East Sector and noticed very quickly how dark and 
unpopulated it was,'' saying, ``It left an impression that hit 
this 12-year-old kid.'' He said, ``I felt a kind of foreboding 
about it, and I didn't spend much time there. As a 12-year-old 
I saw the difference between East and West.'' He later told his 
students, ``I never made another trip like that, but I have 
never forgotten it.''
    Now, why am I sharing this totally unrelated story? About a 
year-and-a-half ago I made a----
    Mr. Bishop. Mr. Labrador, isn't that the same thing that 
happens when you go from Utah into Idaho?
    Mr. Labrador. No, it is the other way around.
    [Laughter.]
    Mr. Labrador. So, about a year-and-a-half ago I made a 
helicopter trip over the Clearwater Forest. And you could see 
the difference between the State lands and the Federal lands. 
You could see the difference between the private lands and the 
Federal lands. And it is something that has left an amazing 
impression on me, because you could see a healthy forest versus 
a decaying forest. You could see one that was green and 
prosperous and vibrant, and one that was dying and that was 
about to go up in flames.
    Governor Otter, have you taken one of those trips on a 
helicopter, and can you explain? Because sometimes we talk 
about these things and people don't understand. But it is 
something that has left an impression on me, and I just wonder 
if you have done something similar. And if you could, describe 
for the Committee what you have seen.
    Governor Otter. Well, thank you, Congressman Labrador. I 
would tell you that last summer I took a lot of those trips. We 
had one of the number one fires in the United States. It was 
designated so because of the potential damage. And that was the 
Trinity Ridge Fire. Now, Trinity Ridge is on the Boise reaches, 
so it is the watershed for the Boise River, which, at Weiser 
dumps into the Snake River. But it is also a very vibrant water 
body and it supplies a lot of water for Boise itself, and other 
communities up and down the river.
    Perhaps Chief Tisdale said it best when he came to Idaho, 
and he said, ``I estimate there is 14 million dead trees in 
Idaho,'' 14 million. I think that was very conservative. Had he 
been on that ride with me across Lucky Peak through the Arrow 
Rock reaches, up the south fork of the Boise, and then over the 
hill into the Anderson Ranch region to watch that Trinity Ridge 
230,000 acres of forest burning between Pine, Idaho and Idaho 
City, he would have seen a lot more dead trees that hadn't been 
touched by fire yet. And that is one of the dangers.
    As you well know, the Big Burn--we are at 103 years of the 
Big Burn anniversary. Most of the Big Burn was naturally 
replaced with Lodge Pole Pine. Lodge Pole Pine has a life 
expectancy of 110 to 120 years, that was 1,300,000 acres. We 
have a massive die that is coming on in Idaho without a bug 
touching it or without Tussock Moth, or without any disease, 
just from the Lodge Pole Pine itself.
    So, you are absolutely right. I have been able--in fact, in 
part of that flight in Clearwater, you undoubtedly flew over 
tribal grounds, as well, and you saw a healthy, vibrant forest 
with lots of activity, wildlife activity. But you also saw a 
lot of human activity on those same private lands, whether it 
was the Potlatch land or whether it was the Nez Perce land or 
the Coeur d'Alene. In all cases, there is just a much healthier 
forest when it is attended to, and it doesn't get overgrown.
    Mr. Labrador. Thank you. Mr. Chairman, in your testimony 
you discuss Senator Crapo's efforts with the Clearwater Basin 
Collaborative. I am a supporter of the initiative, and I look 
forward to the results they produce. Can you tell me the amount 
of timber receipts that Idaho County has received as a result 
of the CBC?
    Mr. Whitman. The CBC is still waiting to be approved, it is 
still in its stages of going through the approval process. It 
will probably undoubtedly come before this group or whomever. I 
really don't know. It is at the top of the list of about 20-
some-odd other groups throughout the United States.
    Mr. Labrador. And why is it waiting?
    Mr. Whitman. Well, there are a number of issues, I guess 
you would say. One is a bureaucracy, of course. But that 
affects everything.
    We have gone to lengths to have everyone's input into this 
process. Right now we are waiting for it to be funded, to go 
through the budgetary process, a hearing process, undoubtedly, 
where each element will probably be out for public review and 
questioning.
    Mr. Labrador. Excellent. And you also talked about how the 
Tribe manages its lands to produce jobs and revenues, while 
also benefitting fish and wildlife.
    Mr. Bishop. Well, I know I skipped you, but you are red.
    Mr. Labrador. You took a little bit of my time by attacking 
Idaho. Could I take just a little bit of my time?
    [Laughter.]
    Mr. Bishop. You got 15 seconds, go for it.
    Mr. Labrador. Why is the Tribe able to achieve this 
balanced management, while the Forest Service cannot?
    Mr. Whitman. Simply because we manage wildfires, 
catastrophic wildfires. You look at 99.9 percent of the 
activity, it is the aftermath of the fires. Nobody goes back 
into the watershed to stabilize them. The ecosystems are broke. 
And when people go in at other activities, they accomplish the 
same thing. So what you have ending up with is a wasteland. We 
have had to go in and fix these for fisheries, for culture 
resources, for plants, native plant restoration, and endangered 
species of retrofits. So we have accomplished restoration and 
recovery activities on aquatics and terrestrials.
    Mr. Labrador. Thank you very much. Thank you, Mr. Chairman, 
for your indulgence.
    Mr. Bishop. Thank you. I will let you--since this was the 
first time, the Chairman had a chance to answer a question. But 
what I said was true.
    All right, Mr. Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman, and thank you all for 
being here. This is an extremely important issue for the people 
that are involved. And you know that very well. Being from East 
Texas, we have lots of pine trees and hardwood trees. And back 
when the idea of the National Forest was taking hold, it was 
sold to the people in East Texas, ``Gee, if you will just let 
us have this as Federal land, we will manage it so well, we 
will have a good timber management program, and we will share 
the revenue.'' Because you can't tax--as you guys know, you 
can't tax that Federal land. So when the Federal Government 
comes in to a county and takes over the land, that tax revenue 
is gone.
    But they looked at it and figured, ``Well, surely you can 
trust the Federal Government, they are going to be sharing 
timber revenue with us, so that will be OK. Even though we 
can't tax the land, we will have all that revenue coming from 
the timber, and our schools will be OK, even with all that 
massive amount of lands off the tax rolls.'' And you know what 
has happened is what we have been talking about. Not only is 
there not good management; in some places, there is no 
management.
    And after we had a couple of hurricanes come up through 
East Texas, timber was dying. You know what happens? If you can 
get there, it means millions of dollars. Otherwise, the trees 
come down, the bugs get in, the disease comes in, and you lose 
more of your forest. We couldn't even get the upper management 
moving forward so they would harvest those trees and at least 
prevent disease and bugs getting the others. It is all a 
management issue. But we couldn't even--when the hurricanes had 
actually killed these trees we couldn't get revenue for the 
schools.
    And I was just at Broaddus, Texas, 2 weeks ago, and these 
are kids--we don't always put the face on people that are 
affected--these are kids in the Broaddus School. It is 
landlocked. They can't move because they are surrounded by 
Federal, national forests. There is some private land, but they 
know there is no place for them to move in the area that is 
similar. So the school is landlocked, and they don't get any 
revenue off of all that Federal land around them.
    So, I was wondering if it is just isolated to East Texas 
and the National Forest we have, or if that is a problem that 
you have seen with regard to the originally promised revenue 
that would help the schools and the counties. Anybody.
    Mr. Grose. I could respond that model was the national 
model, and the 25 percent rule that the schools and counties 
were supposed to get didn't--was good for the first 80 years it 
was in existence. And it has been the last 20 to 30 years that 
the problem has existed where we are not receiving those 
revenues, ergo the Schools Self-Determination Act, which was 
supposed to come in and make up for that lost revenue to the 
county schools, et cetera. And, as you well know, that dollar 
amount has decreased rapidly over the last few years.
    So, yes, that model was supposed to be the model under 
which we were operating. The 384,000 acres in my county receive 
very, very little benefit from the work we do, not only on the 
National Forest, but roads and highways and things leading up 
to the National Forest. So you are absolutely right, it has 
affected all of us. In my home town we used to have a school 
that had 1,200 kids in it. Now the district is down to just 
over 300, because people have moved out of that area.
    Mr. Gohmert. There is no way to make a living. Yes, sir.
    Mr. Jensen. In the county that I live in, in northern 
Wisconsin, this is exactly what is going on. Sixty-five percent 
of the land base in the county I live in is National Forest.
    Mr. Gohmert. Sixty-five percent?
    Mr. Jensen. Sixty-five percent. The county I live in is 
called Forest County. It is timber. That is it. And everything 
else after that is--comes with is recreation, tourism. It's a 
beautiful part of our State. But our local schools, the town 
that I grew up in, is risking being closed, because of these 
payment in lieu of taxes. A county to the north of us--these 
are all logging towns, it is all timber-based. This thing is 
happening all over my State with these small, rural 
communities.
    Now there are many schools and over time they will 
consolidate. But this is a specific reason why some of these 
schools are closing and risk closing where I live, because of 
the Federal forest program and the declining timber harvest. So 
that is exactly what is going on.
    Mr. Gohmert. And, Governor, I know you have done well as 
Governor of the State, but you still look good up here on the 
Hill.
    Governor Otter. Well, thank you. And, Mr. Chairman, if I 
might take my leave, I have to make a choice now. I have either 
got to go catch my plane or spend another night in Washington, 
D.C. and out of Idaho. I am opting for the latter.
    [Laughter.]
    Mr. Bishop. Can I break the trend here? For the remaining 
witnesses--Mr. Holt, our four Republicans over here, myself--do 
any of you have a question specifically for Governor Otter?
    Mr. Gohmert. And I yield back, too.
    Mr. Bishop. I assumed that much. Do you have one 
specifically for the Governor?
    Dr. Holt. Just greetings and a sign of appreciation for his 
taking part in this.
    Mr. Bishop. Thank you. Mr. Daines? Specifically for the 
Governor?
    Mr. Daines. I do. Governor Otter, Steve Daines from 
Montana. A pleasure to have you as my neighbor, as well. So 
thank you.
    Governor Otter. Thank you.
    Mr. Daines. Specifically, talking about the cost of the 
fire suppression and so forth, we had the worst forest fire 
year in Montana since 1910. We spent $195 million fighting 
fires, $50 million from our State coffers. My son plays high 
school football. We had to cancel Friday Night Lights in 
Montana last fall because the air was not safe to breathe.
    Can you expand a little bit around how an aggressive forest 
management plan is critical to the safety of our communities?
    Governor Otter. Well, I can't give you specifics on it, but 
I can tell you this. When we have a forest fire in the National 
Forest--in the Federal forest, it is usually upwards of 13,000 
acres. A fire on State land is less than 500 acres. A fire on 
private land--I don't know what it is on the Chairman's land, 
but on private land it is less than 500 acres. And that all 
comes down to what happens to the environment.
    There is a lot of cost, Congressman, that we don't see. And 
that is why I spoke to that earlier about watershed loss, about 
all of our environmental restoration on the salmon runs, and 
the billion dollars a year that we spend every year for that. 
That is not just $1 billion one time. That is $1 billion every 
year.
    And so, the $214 million is the checks that we have to 
write today for the people that went in, risked their lives--in 
fact, Anne Veseth, one of them in Idaho this year, lost her 
life fighting that forest fire. It didn't have to happen.
    We are not going to stop all forest fires. I am the first 
to admit that. But boy, there is an awful lot that we can do to 
reduce the intensity and the resulting damage of these 
catastrophic forest fires because of the overloading of fuel on 
very little land.
    Mr. Daines. Thanks, Governor.
    Governor Otter. Thank you.
    Mr. Bishop. Butch, let me ask three last questions and then 
we will excuse you. And I appreciate you being here.
    The first one I think you just answered. In these last 
devastating fires in Idaho, the fires on Idaho State land, 
though, was less than half of your 20-year average.
    Governor Otter. Oh, yes.
    Mr. Bishop. I am assuming you are talking about management, 
specifically, about thinning that takes place.
    Governor Otter. Right.
    Mr. Bishop. Can I ask you also, how does the State timber 
program fund its operation cost?
    Governor Otter. It is self-funded, but it still yields for 
the beneficiaries about $50 million a year. In fact, $52 
million alone went to schools.
    Mr. Bishop. OK. And as an old school teacher, I really 
appreciate that one.
    Governor Otter. You are welcome.
    Mr. Bishop. Let me--except it is the wrong State, but I 
appreciate that one.
    Last question I want to ask simply in the two--comparing 
the Federal lands as well as the State forest lands, the 
recreational opportunity, how is that enhanced on the State 
lands vis a vis the Forest Service lands?
    Governor Otter. Well, that is part of the problem that we 
have got, Mr. Chairman, in Idaho is we are shutting down an 
awful lot of the Federal forest lands and the access to them, 
especially by the outdoor recreationalists. Because they are in 
such disrepair, in part. Obviously, sometimes when the fire 
danger gets to the extreme level, we try to curtail any 
activity in there, any kind of an open fire, any kind of 
activity in there, because we don't want to have to go in there 
and fight a forest fire.
    So, we do not shut down the State lands near as much as the 
Federal Government has to close, sometimes permanently, some of 
the access into the Federal forest.
    Mr. Bishop. OK. Butch, thank you for being here.
    Governor Otter. Thank you.
    Mr. Bishop. It is good to see you again. Have a good trip 
back home.
    Governor Otter. Thank you.
    Mr. Bishop. Thank you. We will excuse him at this time. We 
have our three remaining witnesses, though.
    Mr. Holt, do you have questions for the other three 
witnesses who are still here?
    Dr. Holt. Yes. Thank you, Mr. Chairman. For Chairman 
Whitman, how would either a trust approach or an outright 
conveyance to the State protect tree rights?
    Mr. Whitman. At this juncture----
    Dr. Holt. And this is a fairly generous question----
    Mr. Whitman. Yes.
    Dr. Holt [continuing]. But I would think you are the best 
person to answer that.
    Mr. Whitman. It wouldn't protect the tribal treaty rights. 
In our instance, and probably in other Tribes, most of the 
Tribes, you know, the treaties were made with the Federal 
Government and they are Federally adjudicated in our case. And 
that pertains to all the resources that we are dependent upon.
    And most thoughts were that, as the State would take that 
over, it says--the example they are saying it wouldn't harm 
tribal lands. Our rights have been adjudicated, and in our 
instance, 13 million acres, Federally adjudicated lands, our 
rights maintain within there. So all we gave up was the 
ownership of those properties, so that the States and their 
accompanying other governments--in this instance talking about 
Idaho. Then there is Montana, Oregon, and Washington, where our 
lands were in. But those abilities to go out and access those 
lands and to pursue the rights of our livelihood were 
maintained.
    Within that, of course, we sought the rights of going to do 
some management efforts to protect those resources. Again, they 
are protected by the Federal Government under those treaties. 
That doesn't go along to the State. There are State-recognized 
Tribes throughout the United States. But in our instance, we 
predate statehood. We were there actually before, well before.
    Dr. Holt. I wanted to ask you, Chairman, to reflect on the 
discussion that just occurred. With regard to management, you 
are an interested observer. Do you have any observations about 
the relative effectiveness and wise use of management for 
tribal-managed lands, State-managed lands, and Federal-managed 
lands?
    Mr. Whitman. Well, as an ``interested observer,'' we are a 
participant in all the work that goes on within that treaty 
territory. And those counties are depressed. We know, because 
we share in the same schools in some areas. Idaho County, 
Valley County, they are very depressed because of the PILT 
issue, paying in lieu of taxes of the timer lands. And that 
affects some of our students, our families, so forth. We are 
all basically dependent upon the same resources. Some families, 
that is all they have done all their lives. Some are 
contractors. Some barely get along as a certified Indian 
business that contracts with our government, Federal 
Government, and those 11 National Forests that we are working 
with.
    Our restoration priorities are in critical designated 
watersheds. If there is a fire in a watershed, we want to make 
sure that the aftermath of that fire effort, when they take the 
equipment and the manpower away, often times the scars that are 
left are just as injurious as the fire itself. We have to 
evaluate that. We have to take our water samples, how we 
maintain, improve the continued animal species and diversity in 
those watersheds and those lands. We have to look at the 
terrestrials and aquatic systems, to make sure that they are 
there so that they--as we call it, our wheel of life, each one 
is dependent upon the other. That is not a part of ordinary 
management that is taught in schools that the Federal agencies, 
they have these people working with them--or the States. We 
have coined it ``cultural science.''
    Dr. Holt. Is either of the other two entities closer to 
your practice of management?
    Mr. Whitman. No. We are always educating. We do that 
because we need to put monitoring controls within the current 
regulations. And we are just as frustrated with NEPA as 
everyone else, but it is where the application and the 
resultant bureaucratic flow of paperwork is there. We share the 
same concern----
    Dr. Holt. Just a yes or no in the last couple of seconds. 
So you wouldn't agree with the previous conclusion that the 
State management is definitely preferable to the Federal 
management?
    Mr. Whitman. Not in itself, no.
    Dr. Holt. Thank you.
    Mr. Bishop. We have time to just go down the row again 
here, and then I will give the final questions in this round. 
Mr. Stewart.
    Mr. Stewart. Thank you, Mr. Chairman. Appreciate your 
leadership on this. To the witnesses, thank you.
    Mr. Jensen, you mentioned 65 percent. I long for that in 
some ways. I may have a record in that I have one county that 
is 97 percent controlled by the Federal Government. There are 
two counties in my district that are 90 percent controlled by 
the Federal Government. It is enormously important to those 
folks who are struggling out there to deal with some of that.
    Forgive me for restating the obvious. I recognize that 
forest management is complicated, that sometimes it is 
subjective, that there is science involved but there is 
judgment involved, as well. Some of the issues are, I think, 
clear. We have talked about some of those today.
    One of them, of course, that has been mentioned several 
times is on many of these National Forests and these national 
lands, the Bark Beetle has come in, has infested and has 
destroyed millions of feet of timber. I used to be the leader 
of an environmental company where we would file for permits to 
go in and timber that dead wood. As soon as a private company 
did that, often--in fact, almost always--various environmental 
groups would then file suit, knowing that they could delay that 
permitting process for a number of years until there was no 
more commercial value in that timber. It is just one example.
    And so, I would ask you this. In a big picture sort of way, 
if you were king for a day, if you were someone who could 
actually change policies, what is the one thing that you would 
do? What is the one regulation that you would reform that you 
think would have the greatest impact on some of these issues 
regarding the management plans? Either one.
    Mr. Jensen. Well, that is a tough question. I wish I could 
have thought about that a little bit more before you asked 
that. But I just think--and I don't know if I am going to 
answer your question; I just have a thought--I just think that 
in all of our environmental issues that we have, a lot of times 
it is based on emotion, not on science. And ultimately, the 
health of the forest requires timber to be harvested.
    When the timber is harvested--I mean I go to the West every 
year, thankfully, as a hunter, as a tourist, see the beautiful 
Western States. All the game is in the managed forests. And it 
just breaks my heart, as a person that has grown up in the 
forest and making a living, to see timber laying on the ground, 
to see forest fires where there is no game, to see the ground 
burnt so hard that nothing else will grow.
    So, I am not sure I am answering your question correctly--
--
    Mr. Stewart. Well, let me just press on that just a little 
bit. Is there one thing that stands out to you that recurs 
again and again, or that seems to have a greater importance 
than the other? Do you think, ``If we could do this one thing 
it would really have an impact on how these are managed''? And 
apparently not--Mr. Jensen, I don't mean to put you on the 
spot--but apparently not in the sense that you have had to 
consider that, how best to answer that question.
    So correct me if I am wrong, but to you, apparently, there 
is a number of things, and one particular thing doesn't really 
jump out at you.
    Mr. Jensen. Well, I mean, just getting back to just 
actively managing the timber, harvesting the timber.
    Mr. Stewart. OK. Yes, harvesting. Yes.
    Mr. Grose. Congressman, I would have to say NEPA----
    Mr. Stewart. Yes?
    Mr. Grose [continuing]. Is a big problem. I think that--we 
hide behind, I think sometimes, NEPA. Giving us a reason for 
not doing anything. And it seems to me, at least, that once we 
get one endangered species taken care of and do all the things 
that we need to do, as we did with the Spotted Owl in the 
northwest, then another thing comes up. And then, when we get 
rid of one issue then another thing pops up. I kind of look at 
it like a building inspector giving a final punch list. I would 
like to see the final punch list. I would like to know what I 
have to do in order to meet all of NEPA in one shot here, so 
that I don't have these new issues coming up. I need that punch 
list so I know where I am going.
    There is so much uncertainty out there in the timber 
industry that people in that industry are getting out of it, 
because they can't do it. They can't live with the uncertainty 
that exists. If the Gifford Pinchot National Forest only 
harvests 50 million board feet a year, that is not enough 
timber to really have one operator operate for that year in 
that forest. So we need that punch list. We need something that 
gives us some certainty into the future of what is going to 
happen.
    Mr. Stewart. I appreciate that answer, and I agree with 
you, as well. If you had asked me, the NEPA process, I think, 
would be the one thing that would jump out at me. It is an 
example of a great intention that has gone awry over the years. 
Thank you. I yield back.
    Mr. Bishop. Thank you. Commissioner. Mr. Southerland, has 
been waiting patiently. Questions?
    Mr. Southerland. Mr. Chairman, thank you. As a guest to the 
Subcommittee, I appreciate your allowing me just a few moments. 
I am from Northwest Florida. We have the Apalachicola National 
Forest, which is obviously critical to my entire region, but 
clearly, the counties that make up and surround the 
Apalachicola National Forest. And some of the things that are 
concerning me, not just about my district, but also my State, 
Florida's highest-valued agricultural product is trees. A lot 
of people don't realize that about Florida.
    Over $16.6 billion is infused into Florida's economy from 
the manufacturing and distribution of forest products each 
year. And Florida's forest products, industry and forestry, 
contributes, supports communities all over the State of 
Florida. Over 133,000 employees of Florida's forest industry 
are paid nearly $5 billion each year. And Florida has over 16 
million acres of forests.
    My concerns with the timber industry, you are talking about 
some of the point source legislation that seems to really be 
targeting our logging operations, limited truck weights, you 
are talking about increased diesel prices. I am hearing what 
you just stated about loggers and people in the timber industry 
going out of business all over the country. And yet we still 
hear the Federal push to acquire more land. They have this 
insatiable appetite.
    So, if we are not managing our forests--as I think this 
panel has clearly outlined--and we have individuals that are 
getting out of the business, companies that are getting out of 
the business that are critical in order to properly manage 
those forests, then land acquisition to continue to exasperate 
and increase the magnitude of the problem should really be out 
of the question. Do you agree with that statement, or is that 
foreign to--is that wrong?
    Mr. Jensen. I agree wholeheartedly.
    Mr. Grose. Absolutely. One other comment I would make is a 
logging operation in Washington State, one tower costs in 
excess of $1 million now. That is for one logging operation, 
one tower, one logging tower. So you can't expect people to do 
business and put that kind of outlay, and then continue their 
business. They have to have that flow of wood to do so.
    So, yes, you are absolutely right. It is a huge problem, 
nationwide. We shouldn't be purchasing more land. And, 
moreover, in my opinion, we shouldn't be making more of our 
National Forests into wilderness areas and wild rivers areas.
    Mr. Southerland. Well, and Mr. Jensen, I know I heard you 
make reference to, I think, 65 percent of the land in your home 
county is owned by the Federal Government. And so, therefore, 
if logging communities, if they cannot have access to those 
forests--and I would be willing to bet that maybe your forests 
there have the same problems with the Apalachicola National 
Forest, in that the mortality rate of our trees is higher than 
the harvest rate, which seems to be somewhat ludicrous, and you 
are creating fire hazards, it sounds like you and I come from a 
very similar area.
    But how detrimental is it to the communities that are--that 
really have no option? They seem to be stuck. They want good 
schools, they want to provide education for children. They want 
to make sure that the local services that they expect from 
government are able to be funded. But they also recognize that 
if they do not have a tax base, that they are stuck. Do you 
find the same thing in your home county?
    Mr. Jensen. I do. I find exactly that thing. From the 
forest standpoint, we don't have a fire hazard to speak of in 
our State very much. But we do have infestation, invasive 
species, that sort of thing. Where Federal forest lands border 
private and State and other owned lands and Federal, that is 
spilling over into these other lands, and it is costing these 
other land owners, whichever it may be, more money to manage 
that.
    Also, with our schools, in that county that I live in, 
people are--literally, they are driving around the forest, 
going out for work, for school, for, literally, everything. And 
so it is very devastating.
    Mr. Southerland. Well, just looking at the last 30, 40 
years, say back to the 1970s, you look at the amount of timber 
that is harvested around the country. You look at the 
trajectory. We see graphs all the time that show the trends are 
incredibly alarming. We are seeing neighborhoods that are 
ravaged by fire. We are seeing the floor of our forests are not 
really places that wildlife can thrive.
    If we continue on the current trend, predict out for me--
last question, Mr. Chairman--predict out for me 20, 30 years 
going forward, if we continue on the current trend.
    Mr. Jensen. You are asking me?
    Mr. Southerland. Yes.
    Mr. Jensen. Well, I think it would be catastrophic. Where 
there are areas where there is a National Forest, there will be 
nothing there. There won't be any infrastructure. If we wait 
too long here to get the timber levels to a manageable amount, 
to an acceptable amount with the Federal Government, we are 
going to lose all the infrastructure facilities that use wood. 
Therefore, your tax base, all of those things, will be lost.
    So, in 30 years, if we continue on this trend, we won't 
need to talk about it any more.
    Mr. Southerland. Yes. I thank you very much. And, Mr. 
Chairman, I yield back. And thank you again for allowing me to 
come in for a few questions.
    Mr. Bishop. Happy to have you here. Mr. Grijalva, do you 
have any questions?
    Mr. Grijalva. No, just to thank the witnesses. And 
particularly let me thank the Chairman. The questions that I--
Mr. Holt, the question that I was going to ask you, Mr. 
Chairman, he asked as to how we assure that we protect treaty 
obligations, government-to-government consultation and the 
sovereignty prerogative of your nation. I thought your answer 
said that it is not, because that relationship and trust 
responsibility is with the Federal Government. I think it is a 
complication. And this whole discussion about giving it back to 
the States or something based on a model, it is a huge 
complication, it is a constitutional complication. So, before 
everybody gets on their high horse about this, I think we need 
to check on every one of those details.
    With that, thank you for the hearing. I appreciate it.
    Mr. Bishop. Let me end this thing, if I could, with a 
couple of questions to the remaining guests that we have.
    Mr. Grose, I am going to do this as quickly as I can. In 
your experience, the trust model and the responsibility to 
manage lands for financial returns, does that in any way 
conflict with other multiple-use benefits? For example, would 
access to hunting or fishing rights or camping, recreation, be 
harmed by that kind of an approach?
    Mr. Grose. As a matter of fact, Mr. Chairman, it actually 
helps that aspect. In our State lands we don't have anywhere 
near the restrictions on our State lands that the Federal 
Government has put on the Federal lands in the State of 
Washington. I have ORV and ATV groups that want to get on the 
Federal land, and the Federal lands are severely restricted on 
what they can do on those lands. And the Gifford Pinchot 
National Forest, they have 22 miles of road that they can ride 
on. They are asking for more and more and more, and in fact, 
are seeking State legislation to allow them to license their 
vehicles so that they become a licensed vehicle, so then the 
Forest Service can't prohibit them from riding on Forest 
Service roads.
    Mr. Bishop. All right.
    Mr. Grose. So quite the contrary. We encourage tourism, 
fishing, hunting, all of those things.
    Mr. Bishop. Thank you. I appreciate the Governor talking 
about the value of thinning as management, I appreciate your 
comments on recreation.
    Mr. Jensen, very quickly, does the forest health differ 
between State, county, and forest lands?
    Mr. Jensen. I think dramatically. The forest health of the 
National Forest is, because of the infestation, lack of 
management, the crowding of other trees, there is no game 
because of lack of management--and I am speaking from where I 
live--there is no game, because of lack of management, there is 
no undergrowth coming up. So that the growth rates of these, of 
the National Forests, because of lack of management, is, in and 
of itself, a huge problem, versus the active management of the 
State and county forests.
    Mr. Bishop. Thank you. Let me ask you the same thing I 
asked him, as well, in a different way. In your experience, on 
State and county forests, balancing multiple use, does that in 
any way--is that diminished by timber production?
    Mr. Jensen. Not at all. One of the counties--just to give 
you a quick example, one of the counties that I do a lot of 
work in is Langlade County. Very pro-timber State----
    Mr. Bishop. Let me stop you. You answered the question 
perfectly, and I am not trying to be rude in stopping you. I am 
just trying to get us out of here.
    Mr. Jensen. OK.
    Mr. Bishop. So let me ask one last question to you. And if 
you can do this, you can give me an example. When Gifford 
Pinchot first started the National Forest Service, he said 
specifically it was not about conservation, it was not about 
habitat for, as he called them, critters. It was about 
sustaining a revenue source in the Federal Government and 
providing enough timber for housing as time was going on.
    The Forest Service has blamed the crash in the housing 
market as one of the reasons for a decline of timber sales. Do 
you agree with that assertion?
    Mr. Jensen. No.
    Mr. Bishop. If you want to give me an example now I will 
let you; I have 2 minutes left.
    Are there other countries that are importing timber into 
the United States?
    Mr. Jensen. Are there countries importing timber--are we 
importing----
    Mr. Bishop. Are we importing timber, yes, into the United 
States?
    Mr. Jensen. We are importing timber, forest products, from 
Canada, sure, absolutely.
    Mr. Bishop. All the time?
    Mr. Jensen. All the time. Ask the folks in the northern 
tier of the United States.
    Mr. Bishop. I appreciate it, thank you. I am sorry to cut 
you off. I appreciate those answers.
    Chairman, let me give you the last one, if I could, here. 
Your Tribe has done a great job in managing fishing and wild 
habitat, as also producing jobs and revenue. In fact, I think 
one of the things we might be willing to look at is how Tribes 
have managed their lands on their Reservations vis a vis the 
States and the Federal Government.
    As I am understanding, though, one of the things that is an 
advantage to you is that the management of the lands you have 
comes from those people who are part of the Tribe who are 
living there on the land who are closely associated with the 
health of these lands, and attached to it. Am I inaccurate in 
that assumption?
    Mr. Whitman. No. It is all the people that work with us, 
for us, those who live amongst us, and those of us who are Nez 
Perce that do that.
    Mr. Bishop. One of the ironies I have found is that often 
those, even in the Federal Government, who are on the land and 
who actually live there, make decisions that seem to be common 
sense. It is once you get to the higher levels that decisions 
are made that simply sometimes are frustrating and 
unexplainable at some point. So I appreciate the fact of what 
you have done with the lands that are yours as part of the 
Reservation, part of the treaty rights that you have.
    I also would like to echo the Ranking Member in thanking 
you for coming these great distances, for being with us here. 
We have kept you here for a couple of hours now. I hope it was 
worth your time. I do know that the answers that you gave to 
Committee members were interesting, were insightful, will be 
helpful for us as we go about looking at ways of trying to 
improve the forest systems and improve the ability of having 
communities that rely on the forest become much more 
independent and use the forests in a very productive manner.
    So, I thank you for being here. I appreciate your time and 
testimony. Like I said, your written testimony is part of the 
record. If Members have other questions, they may at some point 
put them in writing. We would ask you, if we indeed have some, 
if you would be willing to respond to those in writing, as 
well.
    And, with that, if there is nothing else, Ranking Member?
    Mr. Grijalva. No, thank you, Mr. Chairman.
    Mr. Bishop. Thank you for being here. The hearing is 
adjourned.
    [Whereupon, at 12:06 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

    [A letter submitted for the record by Philip Rigdon, 
President, Intertribal Timber Council, follows:]

March 11, 2013
The Honorable Rob Bishop, Chairman
Committee on Natural Resources
Subcommittee on Public Lands and Environmental Regulation
1324 Longworth House Office Building
U.S. House of Representatives
Washington, DC 20515

The Honorable Raul Grijalva, Ranking
Committee on Natural Resources
Subcommittee on Public Lands and Environmental Regulation
1329 Longworth House Office Building
U.S. House of Representatives
Washington, DC 20515

Statement submitted for the record on the Subcommittee's Oversight 
Hearing of February 26, 2013 on ``State Forest Management: A Model for 
Promoting Healthy Forests, Rural Schools and Jobs.''
Dear Chairman Bishop and Ranking Member Grijalva:
    The Intertribal Timber Council (ITC) hereby submits this statement 
for the Subcommittee's hearing record of the Subcommittee's Oversight 
Hearing on ``State Forest Management: A Model for Promoting Healthy 
Forests, Rural Schools and Jobs'' held Tuesday, February 26, 2013.
    The ITC is a thirty-seven year old national association of Indian 
tribes and Alaska Native organizations holding more than 90% of the 18 
million acres of tribal forest land held in federal trust, as well as 
over four hundred thousand forest acres in Alaska.
    The ITC's purpose is to advance the understanding and management of 
Native American forests and natural resources. Along with other forest 
land owners, tribes and Alaska Natives share a collective stake in the 
health, utilization and sustainability of our nation's forests.
    Our forests are an integral part of our homelands and we have cared 
for them over countless generations, relying upon them for cultural, 
spiritual, and physical sustenance, as well as governmental revenue and 
jobs for the local community. A number of tribes have sawmill 
operations, which can be the last such facilities across wide areas. 
The federal government also has fiduciary obligations to protect and 
perpetuate the health and productivity of tribal forest resources. 
Beyond the borders of our reservations, federally reserved tribal 
rights and interests often apply to neighboring public lands.
    Tribes share many of the forest issues, concerns, and 
responsibilities that apply to other forest land owners, including 
states. Disease, insect infestation and wildfire are common concerns, 
as are invasive species, climate change, and the disappearance of 
management, harvesting, transportation and processing infrastructure 
for forest products. And we have had a long standing and increasing 
concern about the paralysis afflicting the management of neighboring 
federal forests. The inability of federal agencies to manage the 
forests entrusted to their care poses potentially devastating 
consequences for tribes, states, and other neighboring forest land 
owners, and is prompting the tribes, like the states, to pursue 
alternatives to address this growing problem.
    On this occasion of the Subcommittee's oversight hearing on state 
forestry, its comparison to federal public forest management, and 
state-based suggested responses, the ITC seeks to provide the 
Subcommittee with a brief overview and update of tribal perspectives on 
similar issues. These comments seek to introduce the Subcommittee to 
ITC activities that are now still in process and are pending final 
reports:
        1.  the Tribal Forest Protection Act, which seeks to facilitate 
        tribes performing forest health projects on neighboring federal 
        public forests, and a review of hindrances to its 
        implementation;
        2.  the ITC Anchor Forest proposal, which seeks transboundary 
        cooperative forest management to preserve forest health, 
        productivity and infrastructure;
        3.  the coming completion of the third statutorily mandated 
        report of an Indian Forest Management Assessment Team (IFMAT 
        III), which is an independent comprehensive decadal review of 
        the status of Indian trust forests and forestry, and is the 
        only such review of federal forests; and
        4.  the need to recognize and protect tribal treaty and other 
        rights and interests on federal public lands in any potential 
        revision of that land's management.
1) The Tribal Forest Protection Act
    The Tribal Forest Protection Act (TFPA, P.L. 108-278) was enacted 
after a series of devastating wildfires came off of federal public 
forest land onto Indian reservation land, burning thousands of acres of 
tribal forests, destroying homes, disrupting vital ecological 
functions, and trapping and killing reservation residents. The Act 
seeks to enable tribes to carry out fuels and forest health projects on 
Forest Service and Bureau of Land Management lands that pose threats to 
tribal trust lands or reserved rights. Tribes propose the projects, and 
while their acceptance is at the discretion of the local U.S. Forest 
Service or BLM, the Act intends that the two agencies give the 
proposals special consideration. Implementation, however, has been a 
disappointment. Only six TFPA projects have been successfully 
implemented on Forest Service lands since the TFPA was adopted in 2004. 
The consideration of proposals has been extremely slow, often taking 
years, frustrating both the tribes and the Forest Service.
    To identify impediments to the Act's success, the ITC, working in 
collaboration with the Forest Service and Bureau of Indian Affairs, has 
been conducting an investigation into the TFPA's implementation. The 
final report is expected out in the next few weeks, and while not yet 
final, it appears that points of difficulty include a lack of training 
on the TFPA and federal-Indian relationships, inadequate agency funding 
for tribally proposed projects, frequent staffing turnover, and the 
cost and legal hurdles posed by federal administrative processes. It is 
hoped the TFPA report and its findings and recommendations can provide 
information helpful to improving the TFPA's effectiveness. The ``Good 
Neighbor'' authorities for Colorado and Utah provide limited 
authorities similar to those tribes can pursue under the TFPA.
2) The ITC Anchor Forest Proposal
    The ITC is exploring the concept of Anchor Forests as a means to 
try to maintain healthy working forests on the landscape. Economic 
benefits from harvest of wood products are essential to address forest 
health problems on federal lands, sustain stewardship practices on 
private, tribal, and state forests, defray costs of management, and 
provide environmental services. Anchor Forests are intended to provide 
a foundation to foster collaboration and cooperation across ownership 
boundaries and among diverse interests. For regional planning and 
development, Anchor Forests support the capacity to mount and focus 
financial resources for investments in infrastructure and ecological 
functions by identifying regional needs, opportunities, and priorities.
    Anchor forests are large, contiguous areas of land with four major 
characteristics:
        1.  A reasonable expectation for sustainable wood commodity 
        production as a major management objective; and
        2.  Production levels sufficient to support economically viable 
        manufacturing, processing, and work force infrastructure within 
        accessible transportation; and
        3.  Long-term management plans, supported by inventory systems, 
        professional staff, and geographic information systems; and
        4.  Institutional and operational capacity for implementation.
    The first two characteristics center on the relationship between 
commercial activities and the ability to care for forests. Anchor 
Forests are intended to be capable of sustaining production levels of 
forest products at a scale necessary to maintain at least a minimal 
level of competition (200 MMBF) within viable transportation distance 
(60 mile radius) of processing facilities. Because of long-term 
commitments to stewardship on relatively large blocks of land, Indian 
forests are prime candidates to be recognized Anchor Forests. 
Participation in an Anchor Forest is voluntary.
    Over the past two years, the ITC has been evaluating Anchor Forest 
prospects, including a formal study initiated last fall by the ITC with 
U.S. Forest Service assistance. This ITC/USFS Anchor Forest Pilot 
Project in Washington State is expected to be completed in late 2014, 
but we will be continually gathering additional information on the 
Anchor Forest proposal while the Pilot Project is underway. The on-
going goal is to establish working Anchor Forests and evaluate both 
their creation and operation. Anchor Forests are also being examined by 
a group of independent forestry experts in the third decadal assessment 
of the status of Indian forests and forestry, IFMAT-III.
3) IFMAT III
    Section 3111 of the National Indian Forest Resources Management Act 
(PL 101-630, 1990) requires that every ten years the Secretary of the 
Interior provide for an assessment of Indian trust timber resources and 
its management, to be conducted by a team of independent experts. Each 
report of an Indian Forest Management Assessment Team (IFMAT Report) is 
to include examinations, with findings and recommendations, of eight 
statutorily identified tasks, and is be delivered to the Senate 
Committee on Indian Affairs, the House Committee on Natural Resources, 
Indian tribes and the Administration. The Interior Department has 
contracted with the ITC for the assembly of the assessment teams and 
delivery of the reports. The first IFMAT Report was completed and 
delivered in November 1993, the second in November 2003. Congress held 
oversight hearings on both reports. The third assessment has been 
underway for more than a year and is expected to be completed this June 
2013.
    This is the only regularly scheduled independent review required 
for any federal timber land, and as such is unique and valuable, 
particularly as the reports accrue over time. In addition to its value 
to the tribes and the federal trust management of Indian forests, the 
report's discussion, findings and recommendations could cast an 
informative light on federal public forest management.
4) Recognize and protect tribal treaty rights and interests on federal 
        public land
    The ITC endorses the testimony presented by Nez Perce Tribal 
Chairman Silas Whitman at the Subcommittee's February 26, 2013 
oversight hearing on ``State Forest Management: A Model for Promoting 
Healthy Forests, Rural Schools and Jobs,'' the same hearing for which 
this ITC testimony is submitted. Tribal treaty rights and other rights 
and interests on federal public land must be fully recognized and 
protected in any arrangement that might be struck regarding those lands 
with states, other governments, or private parties, including such 
proposals as ``good neighbor'' management authority, leases of federal 
public lands, federal forest land ``trusts,'', or any form of federal 
land title transfer.
    The ITC also wishes to reiterate the ITC testimony submitted last 
Congress to this Subcommittee (then titled the ``Subcommittee on 
National Parks, Forests and Public Lands'') for its July 20, 2012 
hearing on H.R. 6089, the Healthy Forest Management Act of 2012, 
including the following statement therein:
    ``The Intertribal Timber Council (ITC) is concerned over the 
potential for H.R. 6089 to adversely impact tribal rights and 
interests. While ITC shares concerns regarding the need to undertake 
active management of lands under the jurisdiction of the U.S. Forest 
Service and Bureau of Land Management, state assumption of significant 
federal administrative and programmatic functions must be constrained 
to ensure that management fully complies with requirements of federal 
statutes, regulations, judicial decrees, and fiduciary responsibilities 
towards Indian tribes. Our concerns are multi-faceted, including the 
need to preserve the opportunity for tribes to initiate projects to 
protect trust properties under the Tribal Forest Protection Act (TFPA, 
P.L. 108-278, 25 U.S.C. 3115a), protection of cultural and 
archeological sites, respect for the exercise of religious freedoms and 
the conduct of ceremonies, and protection and preservation of tribal 
treaty and other reserved rights.''
Conclusion
    In conclusion, the ITC urges the Subcommittee, perhaps in 
conjunction with the Subcommittee on Indian and Alaska Native Affairs 
or at the full Committee level, to convene a comprehensive hearing on 
the status of our nation's forests, concerns regarding their economic 
and ecological viability, and potential initiatives that are needed to 
sustain their health and productivity.
    Such a hearing could incorporate Committee oversight of the IFMAT 
III report, in keeping with the oversight hearings conducted by 
previous Congresses of the IFMAT I and IFMAT II reports. Additionally, 
by the June release of IFMAT III, the report on Tribal Forest 
Protection Act implementation will be finished, and the Anchor Forest 
Pilot Project will be further along. The hearing could take testimony 
from tribes, states, federal tribal and public forest land managers, 
academic experts, NGOs, and private parties on numerous similar or 
overlapping interests: All parties have concerns about the declining 
health of federal public forests; The Tribal Forest Protection Act has 
similarities to current Good Neighbor Authority; The Anchor Forest 
Pilot Project has similarities to, and differences with, the 
Collaborative Forest Landscape Restoration Program, The idea of federal 
forest trusts for states could be compared and contrasted to experience 
with the federal trust for tribal forests, and The IFMAT III report 
will include a detailed examination of the status and management of 
tribal forests held in federal trust as well as comparisons with 
federal public and private forests.
    The ITC is actively engaged in a variety of activities generally 
parallel to those being explored by states, NGOs, and other parties. We 
appreciate the opportunity to inform the Subcommittee of the ITC's 
undertakings, and hope our efforts will be of interest and assistance 
to the Subcommittee as it considers current federal public forest land 
issues.

Sincerely,

Philip Rigdon
President
Intertribal Timber Council

cc:  Rep. Don Young, Chairman, House Natural Resources Subcommittee on 
Indian     and Alaska Native Affairs
   Re p. Colleen Hanabusa, Ranking, House Natural Resources 
Subcommittee on Indian and Alaska Native Affairs
   Re p. Mike Simpson, Chair, House Appropriations Subcommittee for 
Interior, Environment, and Related Agencies
   Re p. Jim Moran, Ranking, House Appropriations Subcommittee for 
Interior, Environment, and Related Agencies
   Se n. Maria Cantwell, Chairwoman, Senate Committee on Indian Affairs
   Se n. John Barrasso, Vice Chairman, Senate Committee on Indian 
Affairs
   Se n. Joe Manchin, Chairman, Senate Energy and Natural Resources 
Subcommittee on Public Lands, Forests and Mining
   Se n. John Barrasso, Ranking, Senate Energy and Natural Resources 
Subcommittee on Public Lands, Forests and Mining
   Se n. Jack Reed, Chairman, Senate Appropriations Subcommittee for 
Interior, Environment, and Related Agencies
   Se n. Lisa Murkowski, Senate Ranking, Appropriations Subcommittee 
for Interior, Environment, and Related Agencies
   National Congress of American Indians
   National Association of State Foresters

                                 <all>

</pre></body></html>
